Report No. D-2010-052               April 16, 2010




        Efforts to Prevent Sexual Assault/Harassment
       Involving DOD Contractors During Contingency
                          Operations
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AIG-IPO                       Assistant Inspector General for Investigative Policy
                                 and Oversight
AOR                           Area of Responsibility
CDF                           Contractors Deploying With the Force
CENTCOM                       U.S. Central Command
CRC                           Continental United States Replacement Center
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
JCC-I/A                       Joint Contracting Command – Iraq/Afghanistan
LOGCAP                        Logistics Civil Augmentation Program
MEJA                          Military Extraterritorial Jurisdiction Act
OEF                           Operation Enduring Freedom
OIF                           Operation Iraqi Freedom
SAPR                          Sexual Assault Prevention and Response
SAPRO                         Sexual Assault Prevention and Response Office
TSIRT                         Theater Specific Individual Requirements Training
UCMJ                          Uniform Code of Military Justice
USD(AT&L)                     Under Secretary of Defense for Acquisition,
                                 Technology, and Logistics
USD(P&R)                      Under Secretary of Defense for Personnel and Readiness
                                     INSPECTOR GENERAL 
 

                                     DEPARTMENT OF DEFENSE 
 

                                       400 ARMY NAVY DRIVE 
 

                                  ARLINGTON, VIRGINIA 22202-4704 
 





                                                                                      April 16, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                 READINESS
              CHIEF OF STAFF OF THE ARMY
              ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION,
                 LOGISTICS, AND TECHNOLOGY
              ASSISTANT SECRETARY OF THE AIR FORCE FOR
                 ACQUISITION

SUBJECT: 	 Efforts to Prevent Sexual AssaultlHarassment Involving DOD Contractors During
           Contingency Operations (Final Report No. D-20 10-052)


We are providing this report for information and use. This audit was requested by members of
Congress. We considered comments on a draft of this report in preparing the final report. The
Under Secretary of Defense for Acquisition, Technology, and Logistics; Under Secretary of
Defense for Personnel and Readiness, Department of the Army; Department of the Air Force;
and U.S. Central Command comments conformed to the requirements of DOD Directive 7650.3;
therefore, additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).
                                                                                  \




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2010-052 (Project No. D2008-D000CE-0221.000)                April 16, 2010

               Results in Brief: Efforts to Prevent Sexual
               Assault/Harassment Involving DOD
               Contractors During Contingency Operations
What We Did                                             employees were processed through pre-
At the request of five members of Congress, we          deployment sites without ensuring that sexual
reviewed contracts that support Operations              assault prevention and response training was
Enduring Freedom and Iraqi Freedom for                  completed (Finding B).
language in clauses that address the prevention
of sexual assault or harassment of or by                What We Recommend
contractor personnel. We also determined                Under Secretary of Defense for Acquisition,
whether DOD and/or DOD contractors provided             Technology, and Logistics develop contractual
sexual assault/harassment prevention and                requirements to ensure that DOD contractors are
response training to contractor employees prior         aware of the DOD definition of sexual assault
to deployment.                                          and require contractors to report sexual assaults
                                                        to Military law enforcement.
What We Found
Of the 10 DOD contractors reviewed, 8 did not           Under Secretary of Defense for Personnel and
have policies or training requirements for sexual       Readiness [USD(P&R)] expand the sexual
assault prevention and response. This condition         assault prevention and response policy to
occurred because contractual requirements were          establish prevention, awareness, and reporting
not established to ensure that contractors were         requirements and procedures specifically for
aware of DOD’s definition of sexual assault or          DOD contractors. In addition, USD(P&R)
that contractors should report sexual assault           develop guidance that ensures that combatant
complaints to Military law enforcement during           commanders establish mandatory sexual assault
contingency operations. In addition, sexual             prevention and response training for DOD
assault prevention and response policy was not          contractors who operate in contingency
applied to contractors and contractors were not         operations.
required to complete such training as part of
theater-specific individual requirements training       The Chief of Staff of the Army ensure that the
(Finding A).                                            minimum deployment training requirements,
                                                        including sexual assault prevention and
The Army Deputy Chief of Staff, G-3/5/7, and            response training requirements, are met prior to
Air Force contracting officers did not provide          approving DOD contractors’ deployment
adequate oversight of contractor deployment             operations and review the adequacy of
training for sexual assault prevention and              contractor deployment training for sexual
response. This condition occurred because the           assault prevention and response.
Kellogg, Brown, and Root Services, Inc.
Continental United States Replacement Center            Management Comments and Our
(CRC) and Fluor Corporation CRC operations              Response
were inappropriately approved, despite the              Management comments were responsive to all
contractors’ sexual assault awareness and               of the recommendations. Please see the
reporting training not meeting the minimum              Recommendations Table on the back of this
training requirements. Further, contractor              page.

                                                    i
Report No. D-2010-052 (Project No. D2008-D000CE-0221.000)       April 16, 2010

Recommendations Table

         Management                 Recommendations         No Additional Comments
                                   Requiring Comment                 Required
Under Secretary of Defense for                              A.1.a and A.1.b
Acquisition, Technology, and
Logistics
Under Secretary of Defense for                              A.2.a and A.2.b
Personnel and Readiness
Chief of Staff of the Army                                  B.1.a and B.1.b
Assistant Secretary of the Army                             A.3
for Acquisition, Logistics, and
Technology
Assistant Secretary of the Air                              A.4 and B.2
Force for Acquisition




                                         ii
Table of Contents

Introduction	                                                                      1


      Objectives                                                                   1

      Background                                                                   1

      Review of Internal Controls                                                  2


Finding A. Sexual Harassment and Sexual Assault Policy and Training 

             Requirements for Contractors                                          4


      Recommendations, Management Comments, and Our Response 	                    15 


Finding B. Contractor Self-Deployment Training 	                                  21 


      Recommendations, Management Comments, and Our Response 	                    26 


Appendices

      A. Scope and Methodology 	                                                  28 

      B. Congressional Request Memorandum 	                                       30 

      C. Audit Response to Congressional Questions 	                              32 

      D. Investigative Policy and Oversight Response to Congressional Questions   39 

      E. 	Definitions of Other Sexual Offenses Under the Uniform Code of


              Military Justice                                                    42 

      F. Operations Enduring Freedom and Iraqi Freedom Command Structure          43 


Management Comments

      Under Secretary of Defense for Acquisition, Technology, and Logistics       44 

      Under Secretary of Defense for Personnel and Readiness                      47 

      Department of the Army                                                      51 

      Department of the Air Force                                                 55 

      U.S. Central Command 	                                                      56


Introduction
Objectives
The audit objective was to determine whether contracts that support Operations Enduring
Freedom and Iraqi Freedom areas of operation contain language in clauses that
adequately address DOD policies regarding sexual assault/harassment of and/or by
contractor personnel. We also determined whether the DOD and/or DOD contractors
provided sexual assault/harassment awareness, prevention, and reporting training to DOD
contractor employees prior to their deployment to Operations Enduring Freedom and
Iraqi Freedom areas of operation. See Appendix A for scope and methodology.

Background
In 2005, a former Kellogg, Brown, and Root Services, Inc. (KBR) contractor employee
alleged that she was sexually assaulted by other KBR employees while working on a
contract at Camp Hope, Baghdad. Subsequently, the former KBR employee filed a
complaint that KBR improperly managed the company’s investigation into the sexual
assault allegations. On January 24, 2008, 111 members of Congress requested an
evaluation of DOD and DOD contractor processing of sexual assault complaints by DOD
contractor employees working in Operations Enduring Freedom and Iraqi Freedom areas
of operation. On April 21, 2008, Representatives Louise Slaughter, Henry Waxman, Bob
Filner, Ted Poe, and Jane Harman requested that we expand the scope of the evaluation
to determine what controls DOD has established for contractors in the following areas:
prevention and assistance and contractor accountability. This audit was initiated in
response to the April 2008 request. The results of the initial request were discussed in an
evaluation report1 issued by the Office of Investigative Policy and Oversight, DOD,
Office of Inspector General. See Appendix B for the April 2008 congressional request
memorandum and Appendix C for our response to congressional questions.

Sexual Harassment
The Equal Employment Opportunity Commission determined in title 29 of the Code of
Federal Regulations that sexual harassment can be a form of sex discrimination that
violates Title VII of the Civil Rights Act of 1964. Title VII of the Civil Rights Act of
1964 applies to all employers with 15 or more employees, including state, local, and
Federal Government; employment agencies; and labor organizations. The Act also
declares that sex discrimination is illegal and a civil offense.

Executive Order 11246, “Equal Employment Opportunity,” requires that DOD
contracting agencies include provisions that prohibit discrimination by DOD contractors


1
 Office of Investigative Policy and Oversight, DOD, Office of Inspector General, Report No.
IPO2010E001, “Evaluation of DOD Sexual Assault Response In Operations Enduring and Iraqi Freedom
Areas of Operation,” dated February 1, 2010.

                                                1

against employees and applicants based on race, color, religion, sex, or national origin in
all non-exempt contracts.


Sexual Assault Prevention and Response Initiative
On February 5, 2004, the Secretary of Defense issued a memorandum, “Department of
Defense Care for Victims of Sexual Assaults,” that expressed concern with the increasing
numbers of reports alleging sexual assaults involving Service members deployed to Iraq
and Kuwait and directed a review of how DOD handled the treatment and care for
victims of sexual assault in theater. On February 10, 2004, the Under Secretary of
Defense for Personnel and Readiness [USD(P&R)] directed the Deputy Assistant
Secretary of Defense for Force Health, Protection, and Readiness to establish and lead a
task force to review the reporting of sexual assaults and consider the necessity of training
for Service members. In April 2004, the task force issued the “Task Force Report on
Care for Victims of Sexual Assault,” which found that DOD did not have a policy or
program aimed at preventing sexual assault, particularly in joint combat environments.
Based on the report recommendations to develop such policy, the USD(P&R) established
the Sexual Assault Prevention and Response Program Office (SAPRO) as the single point
of authority for sexual assault policies and oversight responsibilities, which were
established in DOD Directive 6495.01, “Sexual Assault Prevention and Response
(SAPR) Program,” October 6, 2005, and DOD Instruction 6495.02, “Sexual Assault
Prevention and Response Program Procedures,” June 23, 2006.2 The Directive and
Instruction provide sexual assault prevention, reporting, and response policies,
implementation procedures, and oversight responsibilities exclusively for the Military
Services and National Guard and Reserve.
Uniform Code of Military Justice
The Uniform Code of Military Justice (UCMJ) declares that sexual assault committed by
the Armed Forces and DOD civilians and contractors accompanying Armed Forces in
contingency operations is a criminal offense that is punishable by court-martial.

Review of Internal Controls
We identified that internal control weaknesses in the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics [USD(AT&L)] and USD(P&R)
existed as defined by DOD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. The USD(AT&L) did not effectively establish
the following internal controls for contract administration: provisions in DOD contracts
to ensure contractors were aware of the UCMJ definition of sexual assault and that they
should have reported sexual assault complaints to Military law enforcement during
contingency operations. Implementing Recommendations A.1.a and A.1.b will improve
DOD contract administration and potentially result in increased awareness and prevention


2
  DOD Directive 6495.01, “Sexual Assault Prevention and Response (SAPR) Program,” and DOD
Instruction 6495.02, “Sexual Assault Prevention and Response Program Procedures,” were subsequently
revised on November 7, 2008, and November 13, 2008, respectively.

                                                  2

of sexual assault crimes among the DOD total force.3 Additionally, the USD(P&R) did
not establish the following internal controls for personnel and organization management4:
sexual assault and prevention policy that applied to contractor employees and guidance
that ensured that combatant commanders required contractor employees to complete
sexual assault prevention and response training as part of the mandatory theater-specific
individual requirements training prior to deployment to contingency operations.
Implementing Recommendations A.2.a and A.2.b will improve USD(P&R) personnel
management and the operational effectiveness of the DOD total force deployed to
Operations Enduring Freedom and Iraqi Freedom areas of operation. We will provide a
copy of the report to the senior official responsible for internal controls in the
USD(AT&L) and USD(P&R).




3
  DOD Directive 5124.02, “Under Secretary of Defense for Personnel and Readiness (USD(P&R)),”


June 23, 2008, defines “DOD total force” as DOD Active and Reserve Component Military personnel, 

Military retired members, DOD civilian personnel, contractors, and host-nation support personnel who


comprise DOD resources for implementing National Security Strategy. 

4
  DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006, 

restricts the identification of internal control weaknesses in the personnel and organization management


area to DOD military and civilian personnel and excludes contractor personnel. However, since 

USD(P&R) develops policies, plans, and programs for total force personnel, including contractors 

supporting contingency operations in Iraq and Afghanistan, we determined that the personnel and 

organization management internal control reporting category applied. 


                                                     3

Finding A. Sexual Harassment and Sexual Assault
Policy and Training Requirements for Contractors
Although the 10 DOD contractors reviewed have policies and training requirements in
place to comply with the intent of Equal Employment Opportunity laws regarding sexual
harassment, the contractors did not establish similar policies and training requirements
for sexual assault awareness, prevention, and reporting for DOD contractor employees.
This occurred because the Under Secretary of Defense for Acquisition, Technology, and
Logistics [USD(AT&L)] did not establish requirements in DOD contracts to ensure:
     contractors are made aware of the Uniform Code of Military Justice (UCMJ)
        definition of sexual assault; and
     contractor employees report sexual assault complaints to Military law
        enforcement during contingency operations in Iraq and Afghanistan.
In addition, the Under Secretary of Defense for Personnel and Readiness [USD(P&R)]:
     established sexual assault prevention, reporting, and response policies that
        excluded DOD contractors; and
     did not ensure that combatant commanders established minimum pre-deployment 

        training requirements to include sexual assault prevention and response training 

        for contractors who accompany U.S. Armed Forces in contingency operations. 

As a result, contractor employees who were alleged victims or witnesses may not have
known how to report sexual assault crimes to the appropriate Military law enforcement
officials while in Operations Enduring Freedom (OEF) and Iraqi Freedom (OIF) areas of
operation. Additionally, DOD contractors, a supporting component of the DOD total
force, may have been unaware of the severity of sexual assault as a criminal offense
under the UCMJ, thereby increasing the risk of sexual assault occurrences that threaten
contractor productivity in support of DOD contingency operations.

Contractor Policies and Training
We reviewed company policies and training requirements related to sexual harassment
and sexual assault for the following 10 DOD contractors that were awarded contracts
supporting OEF and OIF areas of operation:

 1.		 AECOM;                                     6. Kellogg, Brown, and Root Services,
 2.		 Environmental Chemical                         Inc. (KBR); 

      Corporation (ECC);                         7. L-3 Communications; 

 3.		 Fluor Corporation (Fluor);                 8. Parsons Corporation (Parsons);
 4.		 ITT Corporation, Systems Division          9. Readiness Management Support, LC
      (ITT);                                         (RMS); and
 5.		 Innovative Technical Solutions,            10. Tetra Tech, Inc. 

      Inc.(ITSI); 


See Appendix A for details that discuss our methodology for selecting the sample of
DOD contractors.


                                            4

DOD Definitions of Sexual Harassment and Sexual Assault
In 29 Code of Federal Regulations 1604.11 (July 2006), sexual harassment is defined as:

           (a) Harassment on the basis of sex is a violation of section 703 of title VII.5 Unwelcome sexual
           advances, requests for sexual favors, and other verbal or physical conduct of a sexual nature
           constitute sexual harassment when (1) submission to such conduct is made either explicitly or
           implicitly a term or condition of an individual’s employment, (2) submission to or rejection of
           such conduct by an individual is used as the basis for employment decisions affecting such
           individual, or (3) such conduct has the purpose or effect of unreasonably interfering with an
           individual’s work performance or creating an intimidating, hostile, or offensive working
           environment. [Emphasis added]

Although the Code of Federal Regulation does not define sexual assault, DOD has
defined acts of sexual assault in the UCMJ. Specifically, section 920, title 10, United
States Code (10 U.S.C. §920 [2008]), article 120, “Rape, sexual assault, and other sexual
misconduct,” states:
           (c) Aggravated sexual assault. Any person subject to this chapter [10 USCS 801 et seq.] who--
                (1) causes another person of any age to engage in a sexual act by--
                           (A) threatening or placing that other person in fear (other than by threatening
                                or placing that other person in fear that any person will be subjected to death,
                                grievous bodily harm, or kidnapping); or
                           (B) causing bodily harm; or
                (2) engages in a sexual act with another person of any age if that other person is substantially
                     incapacitated or substantially incapable of--
                           (A) appraising the nature of the sexual act;
                           (B) declining participation in the sexual act; or
                           (C) communicating unwillingness to engage in the sexual act;
           is guilty of aggravated sexual assault and shall be punished as a court-martial may direct.
           [Emphasis added]

Sexual harassment violations are different than sexual assault violations because sexual
assault invokes the critical elements of threat, fear, and bodily harm that are defined in
the UCMJ. Additionally, sexual harassment is not punishable with imprisonment while
sexual assault actions are subject to court-martial. See Appendix E for other felony
offenses of a sexual nature as defined under the UCMJ.

Sexual Harassment Awareness
We determined that all 10 DOD contractors implemented Executive Order 11246 or
Title VII of the Civil Rights Act of 1964 by establishing corporate policies and training
requirements for sexual harassment awareness, prevention, and reporting.

All 10 of the DOD contractors established policy in either the company code of conduct
or other corporate policy that prohibited sexual harassment in the workplace and provided
procedures for reporting such incidents within the companies. Additionally, all 10 DOD


5
    Title VII refers to Title VII of the Civil Rights Act of 1964.

                                                         5

contractors offered sexual harassment prevention training to employees upon hiring and
refresher training through online Internet modules, policy review certification, or training
presentations.

Sexual Assault Awareness
We determined that 8 of 10 DOD contractors did not develop adequate policies or
training requirements to promote employee awareness, prevention, and reporting of
sexual assaults while deployed in support of contingency operations.

Policies
We determined that KBR and Parsons were the only two contractors that developed
company policies for their employees that addressed sexual assault prevention and
response, but that the KBR and Parsons policies were limited. The KBR sexual assault
policy, issued in October 2007, applied to only KBR employees who supported the
Logistics Civil Augmentation Program (LOGCAP) and excluded KBR employees
performing work on other contracts supporting contingency operations; provided a
definition of sexual assault that considered any nonconsensual sexual act or contact to be
sexual assault; and established reporting procedures for its LOGCAP employees to report
sexual assault crimes internally to KBR human resources representatives, employee
relations representatives, its ethics hotline, or legal counsel, and did not mention local law
enforcement. Parsons’ workplace violence policy prohibited physical assault, which
included sexual assault; however, the Parsons’ policy was inadequate because it did not
provide the defining elements of sexual assault. Additionally, the Parsons’ policy
provided internal company reporting procedures for its employees to contact Parsons
supervisors, security, and emergency hotline, and did not mention local law enforcement.

Training
RMS and Fluor were the only two DOD contractors that developed and implemented
sexual assault prevention and response training that classified sexual assault as a crime
characterized by nonconsensual and threatening physical contact causing bodily harm,
including rape. The RMS training module, implemented in June 2007, was the only
sexual assault training that appropriately instructed employees to report sexual assault
crimes to law enforcement authorities as well as to internal company management,
human resources managers, and the RMS ethics hotline. However, the Fluor sexual
assault prevention and response training, implemented in June 2009, inappropriately
instructed employees to report sexual assault crimes internally to Fluor supervisors and
managers.

Sexual Assault Awareness and the Uniform Code of Military
Justice
DOD contractor employees in contingency operations are prosecutable under the
jurisdiction of the UCMJ; however, based on our review of 10 DOD contractors’ policies
and procedures, we determined that the USD(AT&L) did not establish requirements in
DOD contracts to ensure DOD contractors were made aware of the UCMJ definition of



                                              6


sexual assault and the need to report sexual assault complaints to Military law
enforcement.

UCMJ Jurisdiction
On October 17, 2006, Congress passed section 552 of the John Warner National Defense
Authorization Act for Fiscal Year 2007 (Public Law 109-364), which amends
10 U.S.C. §802 [2008] of the UCMJ to extend military jurisdiction over contractors
serving with or accompanying U.S. Armed Forces in contingency operations. On
September 25, 2007, the Deputy Secretary of Defense implemented this legal mandate
into working-level guidance in a memorandum, “Management of DoD Contractors
Personnel Accompanying U.S. Armed Forces in Contingency Operations Outside the
United States,” which authorizes combatant commanders in their respective areas of
responsibility (AOR) to detain, potentially prosecute, and discipline DOD contractors
suspected of committing crimes. Specifically, the Deputy Secretary of Defense stated:
           DoD contractor personnel (regardless of nationality) accompanying U.S. armed forces in
          contingency operations are currently subject to UCMJ jurisdiction. Commanders have UCMJ
          authority to disarm, apprehend, and detain DoD contractors suspected of having committed a
          felony offense in violation of the RUF,6 or outside the scope of their authorized mission, and to
          conduct the basic UCMJ pretrial process and trial procedures currently applicable to the courts-
          martial of military service members. Commanders also have available to them contract and
          administrative remedies, and other remedies, including discipline and possible criminal
          prosecution.

Contractor Definition of Sexual Assault
We determined that 8 of 10 contractors reviewed did not establish an adequate corporate
definition of sexual assault or promote awareness to contractor employees assigned to
DOD projects in Iraq and Afghanistan. Specifically, five contractors misclassified sexual
assault, a violent felony, as an act of sexual harassment, a civil offense, which is reported
internally within the companies instead of externally to Military law enforcement; one
contractor developed a definition that was inconsistent with DOD’s definition and
established internal company reporting procedures; and the remaining two contractors did
not provide any definition of sexual assault. The remaining 2 of 10 contractors
developed a definition of sexual assault that was consistent with DOD’s definition, but
only 1 of the 2 contractors established external reporting to Military law enforcement.
See Table 1 for DOD contractor coverage of sexual assault awareness and reporting.




6
    Rules on the Use of Force.

                                                      7

                   Table 1. DOD Contractors’ Policies and Training on Sexual Assault Awareness and Prevention

                                                                                                                          Tetra
 Description                   AECOM        ECC       Fluor      ITSI     ITT     KBR      L-3     Parsons      RMS       Tech     Totals
 No definition for sexual
                                                                                            X                               X         2
 assault **
 Sexual assault classified
 as form of sexual                X           X                   X        X                          X*                              5
 harassment **
 Sexual assault definition
 inconsistent with the DOD                                                         X                                                  1
 definition **
 Sexual assault definition
 consistent with the DOD                                X                                                         X                   2
 definition
 No external reporting
 procedures to Military law                             X                           X                 X*                              3
 enforcement
 External reporting
 procedures to Military law                                                                                       X                   1
 enforcement
 *Parsons established conflicting policy in its coverage of sexual assault. Parsons harassment policy described sexual assault as a form
 of sexual harassment in its business ethics code, and Parsons workplace violence policy classified sexual assault as workplace violence
 without actually defining sexual assault acts. Additionally, both polices required the employees to report instances to internal company
 management.
 **Categories represent instances when the contractor did not establish an adequate corporate definition of sexual assault and promote
 sexual assault awareness.


Of the 10 contractors we reviewed, 8 contractors did not effectively promote awareness
of sexual assault among their employees because DOD contracts lacked provisions that
ensure contractors are made aware of the UCMJ definition of sexual assault and the
seriousness of the offense. Congress extended UCMJ jurisdiction over contractors in
contingency operations, thereby making it possible for contractors to be prosecuted for
sexual assault violations under Military law. Therefore, the USD(AT&L) needs to ensure
that contractors accompanying Armed Forces are aware of DOD’s definition of sexual
assault and the legal ramifications by establishing the requirement in all DOD contracts
supporting contingency operations.

Sexual Assault Prevention and Response Program
The USD(P&R) established sexual assault prevention, reporting, and response policies,
implementation procedures, and oversight responsibilities in DOD Directive 6495.01 and
DOD Instruction 6495.02 for the Military Services and National Guard and Reserve that
excluded DOD contractors. DOD Directive 6495.01 requires the Secretaries of the
Military Departments to establish policies and procedures to implement the Sexual
Assault Prevention and Response (SAPR) program. The Army, Navy, Air Force, and
Marine Corps have complied with the SAPR directive in their most recent guidance
identified below.


                                                            8

   		 On December 1, 2005, the Navy issued Secretary of the Navy
       Instruction 1752.4A, “Sexual Assault Prevention and Response,” to eliminate
       sexual assault incidents that impact Department of the Navy (DON) personnel and
       family members or incidents that are perpetrated by DON personnel.
   		 On February 5, 2008, the Marine Corps issued Marine Corps Order 1752.5A,
       “Sexual Assault Prevention and Response (SAPR) Program,” to eliminate sexual
       assaults within the Marine Corps and to assist those Marines and sailors who were
       affected by sexual assault while assigned to Marine Corps units.
   		 On March 18, 2008, the Army issued Army Regulation 600-20, “Army Command
       Policy,” to reinforce the Army’s commitment to eliminate incidents of sexual
       assault through a comprehensive policy that centers on awareness and prevention,
       training and education, victim advocacy, response, reporting, and accountability
       for violators.
   		 On March 28, 2008, the Air Force issued Air Force Policy Directive 36-60,
       “Sexual Assault Prevention and Response (SAPR) Program,” to eliminate sexual
       assault within the Department of the Air Force by fostering a culture of
       prevention, providing education and training, response capability, victim support,
       reporting procedures, and accountability that enhances the safety and well-being
       of all members.

Pursuant to the Ronald Reagan National Defense Authorization Act for Fiscal Year 2005
(Public Law 108-375), October 28, 2004, each Military Department must submit an
annual report on the sexual assaults involving members of the Armed Forces, including
the number of sexual assaults by or against Service members. Specifically, Section
577(f) states:

       (f) ANNUAL REPORT ON SEXUAL ASSAULTS.—(1) Not later than January 15 of each year,
       the Secretary of each military department shall submit to the Secretary of Defense a report on the
       sexual assaults involving members of the Armed Forces under the jurisdiction of that Secretary
       during the preceding year. In the case of the Secretary of the Navy, separate reports shall be
       prepared for the Navy and for the Marine Corps.

                (2) Each report on an Armed Force under paragraph (1) shall contain the following:

                         (A) The number of sexual assaults against members of the Armed Force, and the
                         number of sexual assaults by members of the Armed Force, that were reported to
                         military officials during the year covered by such report, and the number of the
                         cases so reported that were substantiated.

SAPRO and the Military Departments have established policy and training requirements
with the intent to eliminate sexual assault among Military Service members throughout
DOD and within the respective Military Departments. According to the Congressional
Research Service report, “Department of Defense Contractors in Iraq and Afghanistan:
Background and Analysis,” August 13, 2009, the DOD total force in OEF and OIF areas
of operation comprises approximately an equal number of DOD contractors and Military
Service members. However, DOD contractors are not required to establish policy or
annually report sexual assault allegations among contractor employees.


                                                   9

The USD(P&R) should consider the number of sexual assault allegations among
contractors that may be unreported and its impact on the DOD total force in contingency
operations abroad. Additionally, the USD(P&R) should expand DOD Directive 6495.01
and DOD Instruction 6495.02 to establish prevention, awareness, and reporting
requirements and procedures for contractor employees who are U.S. citizens and
accompany Military forces in contingency operations. Further, the USD(P&R) should
direct the Services to track and annually report sexual assault cases by or against
contractor employees for incorporation into the annual DOD Sexual Assault Report to
Congress in order to measure the effectiveness of the expanded SAPR guidance for
contractors.

Operations Enduring Freedom and Iraqi Freedom
Initiatives
The U.S. Central Command (CENTCOM) is the unified combatant command that
oversees the missions and operations in the OEF and OIF areas of operation, respectively.
See Appendix F for details on CENTCOM roles and responsibilities under the Secretary
of Defense.

On October 14, 2008, the National Defense Authorization Act for Fiscal Year 2009
(Public Law 110-417) amended the National Defense Authorization Act for Fiscal
Year 2008 (Public Law 110-181) to require the Secretary of Defense, the Secretary of
State, and the Administrator of the Agency for International Development to enter into a
memorandum of understanding for contracts in Iraq and Afghanistan that addresses
mechanisms for contractors to report offenses under the UCMJ, such as sexual assault,
and a requirement for contractors to inform their employees on where to report alleged
UCMJ offenses prior to commencing work. Specifically, section 861 of Public Law 110-
181, as amended, states that the memorandum of understanding shall address at a
minimum:

       (6) Responsibility for the collection and referral to the appropriate Government agency of any
       information relating to offenses under chapter 47 of title 10, United States Code (the Uniform
       Code of Military Justice) …

       (7) Mechanisms for ensuring that contractors are required to report offenses described in
       paragraph (6) that are alleged to have been committed by or against contractor personnel to
       appropriate investigative authorities.

                         .        .        .        .        .        .        .

       (9) Development of a requirement that a contractor shall provide to all contractor personnel who
       will perform work on a contract in Iraq or Afghanistan, before beginning such work, information
       on the following:

                (A) How and where to report an alleged offense described in paragraph (6)

The Joint Contracting Command – Iraq/Afghanistan (JCC-I/A) was established by
CENTCOM as a subordinate command of the Multi-National Force – Iraq to provide
unified contract support to the OEF and OIF areas of operation. JCC-I/A has taken steps

                                                  10


to establish a contract provision, which requires contractor awareness and reporting of
sexual assaults. The “Joint Contracting Command – Iraq/Afghanistan Acquisition
Instruction,” April 1, 2009, requires that clause 952.225-0004, “Compliance with Laws
and Regulations,” be included in all DOD contracts with place of performance in Iraq and
Afghanistan. The clause requires contractor employees to be made aware of all laws,
regulations, policies, and orders that prohibit sexual or aggravated assault and that
contractors notify Military law enforcement when employees are suspected of
committing a crime. Specifically, the clause states:

       (b) Contractor employees shall particularly note all laws, regulations, policies, and orders
       restricting authority to carry firearms, rules for the use of force, and prohibiting sexual or
       aggravated assault. Contractor employees are subject to General Orders Number 1, as modified
       from time to time, including without limitation, their prohibition on privately owned firearms,
       alcohol, drugs, war souvenirs, pornography and photographing detainees, human casualties or
       military security measures.

                         .        .        .        .         .        .        .

       (f) Contractors shall immediately notify military law enforcement and the Contracting
       Officer if they suspect an employee has committed an offense. Contractors shall take any and
       all reasonable and necessary measures to secure the presence of an employee suspected of a
       serious felony offense. Contractors shall not knowingly facilitate the departure of an employee
       suspected of a serious felony offense or violating the Rules for the Use of Force to depart Iraq or
       Afghanistan without approval from the senior U.S. commander in country [Emphasis added].

The JCC-I/A instruction establishes contracting procedures for all contracts with
performance in Iraq and Afghanistan; however, sexual assault is not a crime that is
potentially isolated to only contracts supporting OEF and OIF areas of operation. The
USD(AT&L) should require contracting officers to insert similar provisions for
contractors and their employees to report sexual assault complaints to Military law
enforcement in all DOD contracts supporting all combatant commands’ contingency
operations, including CENTCOM AOR.

Deployment Training Requirements
USD(P&R) is responsible for providing guidance for CENTCOM to establish minimum
theater entry training requirements, or theater-specific individual requirements training
(TSIRT) for all DOD Military personnel deploying to the CENTCOM AOR for OEF and
OIF. As part of the TSIRT, DOD Military personnel are required to be trained on Equal
Opportunity/Prevention of Sexual Harassment and SAPR. However, CENTCOM did not
ensure that contractor employees met the same TSIRT by completing SAPR training
prior to deploying to the CENTCOM AOR. According to a CENTCOM Inspector
General official, CENTCOM delegated the establishment of contractor training
requirements to the Military Services, but the delegation was not documented in writing.
Consequently, the Army, Navy, Air Force, and Marine Corps did not establish a SAPR
training requirement for contractors. The Fort Benning Continental United States
Replacement Center (CRC) requires non-unit Military personnel and DOD contractor
attendees to complete Web-based classes and/or attend instructor-based briefings related
to Equal Opportunity/Prevention of Sexual Harassment and SAPR. However, not all

                                                   11


DOD contractors attend the Fort Benning CRC prior to deployment. Further, DOD
contracting officers did not always designate a deployment center in their contracts for
contractors deploying with the force (CDF) to complete necessary training as required by
DOD Instruction 3020.41, “Contractor Personnel Authorized to Accompany the U.S.
Armed Forces,” October 3, 2005, and Defense Federal Acquisition Regulation
Supplement (DFARS) 252.225-7040, “Contractor Personnel Supporting a Force
Deployed Outside the United States,” July 2009.

DOD Instruction
DOD Instruction 3020.41, “Contractor Personnel Authorized to Accompany the U.S.
Armed Forces,” October 3, 2005, states:

       6.2.7.1. General Deployment Procedures. All CDF shall report to the deployment center
       designated in the contract before deploying to a contingency operation to: validate entry of
       accountability information in the joint database addressed in subparagraph 6.2.6.; be issued or
       validate possession of proper identification cards; receive applicable Government-furnished
       equipment; receive medical and dental screening including required military-specific
       vaccinations/immunizations (e.g., anthrax, smallpox); and validate or complete any required
       training (e.g., Geneva Conventions; law of armed conflict; general orders; standards of conduct;
       force protection; personnel recovery; medical; operational security; anti-terrorism; nuclear,
       biological and chemical protective gear; country brief and cultural awareness; and other training as
       appropriate). . . . [Emphasis added]

DFARS
DFARS clause 252.225-7040, “Contractor Personnel Supporting a Force Deployed
Outside the United States,” July 2009, states:

       (f) Processing and departure points. Deployed Contractor personnel shall—
                (1) Process through the deployment center designated in the contract, or as otherwise
       directed by the Contracting Officer, prior to deploying. The deployment center will conduct
       deployment processing to ensure visibility and accountability of Contractor personnel and to
       ensure that all deployment requirements are met, including the requirements specified in
       paragraph (e)(1) of this clause …

We reviewed 22 contracts that were awarded to the 10 contractors. Our review
determined that nine contracts designated a deployment center; six contracts were not
required to include the DFARS clause because the effective date of the DFARS clause
was after contract award; and seven contracts did not designate a deployment center even
though the DFARS clause was incorporated into the contract. Of the seven contracts that
omitted deployment centers, six contracts were awarded by the Air Force and one
contract was awarded by the Army. See Table C-1 in Appendix C for details of
contracting agencies’ deployment center designation.

Air Force Contracts
According to Air Force contracting personnel, the Air Force contracting officers did not
designate a deployment center in six contracts because they inappropriately delegated the
deployment processing decisions and selection of deployment center to the contractor.
Air Force contracting personnel also stated that, despite the inclusion of DFARS clause


                                                  12


252.225-7040 in the six contracts, the Air Force contracting officers did not verify the
contractor employees’ completion of the deployment requirements. Further, Air Force
contracting personnel stated that there was not always a need to designate a deployment
center in contracts because some contractor employees were in Iraq before the
requirement to process through deployment centers was effective. However, Air Force
contracting personnel could not verify whether the contractor employees were already in
Iraq working on other contracts at the time of contract awards. Our review disclosed that
ITSI was awarded two of the six Air Force contracts that did not designate a deployment
center location. According to the ITSI Human Resources Director and Project Manager,
ITSI employees assigned to those contracts have never attended training at the Fort
Benning CRC. Instead, ITSI provided its own in-theater training that did not include
sexual assault prevention training.

Army Contract
Despite being aware of DFARS clause 252.225-7040, Army contracting personnel stated
that the Army contracting officer did not identify a CRC location in contract W52P1J-05-
D-0003 because the Fort Bliss and Fort Benning CRCs were the only available CRC
options at the time; therefore, the contracting officer delegated the CRC decision to the
contractor based upon the availability of the CRC and urgency of the mission.

The contracting officers’ decision to delegate the deployment center to the contractor did
not comply with DFARS clause 252.225-7040 and DOD Instruction 3020.41. The DOD
Instruction states that DOD Components shall ensure use of one of the formally
designated group or individual joint or Military Department deployment centers (for
example, CRC, Individual Replacement Center, Federal Deployment Center, Unit
Deployment Site) or a contractor-operated theater admission processing center. The
DOD Instruction provided a number of deployment options for contractors and required
DOD Components to choose a deployment option. The contracting officer, as an agent
for DOD, should have ensured that contractors met the minimum TSIRT by designating a
deployment center for contractor employees.

The Joint Contracting Command issued the “Iraq/Afghanistan Theater Business
Clearance Guide,” which requires contracting officers to include mandatory DFARS
clause 252.225-7040 in all contracts with place of performance in Iraq and Afghanistan.
Additionally, the guide requires contracting officers to refer to the CENTCOM
Contracting Web site7 for the most recent mandatory language before developing a
solicitation and after award to ensure that the contract is compliant with current
requirements. CENTCOM requires all personnel, including contractors, to report to Fort
Benning, Georgia, for deployment processing. DOD contracting officers must ensure
that the specific deployment center for contractor employees accompanying U.S. Armed
Forces is designated in the contract language.




7
    The CENTCOM Contracting Web site is: www2.centcom.mil/sites/contracts/Pages/Default.aspx.

                                                  13


On April 13, 2009, we attended the Army SAPR training briefing at Fort Benning CRC
that included both contractor and Military attendees. We noted that training on SAPR
reporting procedures specific to contractors was not provided to the contractor
participants. The Army Judge Advocate General training facilitator acknowledged that
the restricted and unrestricted reporting8 options were targeted exclusively to Military
Service members. Consequently, contractor employees who attended the course were not
informed of where to report a sexual assault crime if they become victims or witnesses.
If specific reporting procedures are not established and incorporated into policy and
training, deployed contractor employees will not know how and where to report sexual
assault crimes.

USD(P&R) needs to develop guidance that ensures that combatant commanders,
including the Commander, CENTCOM, establish SAPR training as part of the mandatory
theater individual requirements training for all contractors before deployment to
contingency operations.

Conclusion
According to the congressionally mandated SAPRO report, “Department of Defense
FY08 Report on Sexual Assault in the Military,” March 2009, “The Department
continues to address the extension of SAPR policy to DOD civilians and DOD
contractors, particularly in contingency operations such as Iraq and Afghanistan.” The
Sexual Assault Advisory Council, established by DOD Instruction 6495.02, plans to
establish a working group along with the Sexual Assault Advisory Council Policy
Subcommittee to address the issue of extending SAPR policy to DOD civilians, DOD
contractors, and the joint environment.

DOD faces challenges in how SAPR policy will be extended to cover contractors,
particularly regarding procedures for reporting. Public Law 108-375 mandates that the
Secretary of Defense develop comprehensive policy for confidential (restricted) reporting
of sexual assault incidents for Military personnel. However, DOD civilians and
contractors do not have the restricted reporting option for sexual assault incidents;
therefore, law enforcement must be notified as mandated by several state statutes for
civilian reporting. The lack of SAPR policy and training for DOD contractors potentially
leaves contractors vulnerable to becoming sexual assault victims or witnesses who do not
know to report the crime to Military law enforcement in Iraq and Afghanistan. Further,
an increase in detained contractor offenders and contractor victims may adversely affect
contractor productivity, which could cause DOD operations in Iraq and Afghanistan to
suffer. Therefore, DOD must facilitate the prevention of those vulnerabilities by




8
  According to DOD Instruction 6495.02, restricted reporting allows a victim of sexual assault who is a
Service member to disclose on a requested confidential basis the details of an assault to specifically
identified individuals and receive medical treatment and counseling, without triggering the official
investigative process. Unrestricted reporting involves the reporting of sexual assaults to the Military
criminal investigative organization.

                                                    14

establishing SAPR policy and training requirements that ensure awareness, prevention,
and reporting for the entire DOD total force, including contractors.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of the Under Secretary of Defense for Personnel and Readiness [USD(P&R)]
comments to draft Recommendation A.2.a.2 and Department of the Army comments to
draft Recommendation A.3, we revised both recommendations in the final report.
Specifically, we revised Recommendation A.2.a.2 to clarify that the Military Services
should be responsible for tracking and annually reporting sexual assault cases involving
DOD contractors for incorporation into the report to Congress. Additionally, we revised
Recommendation A.3 to clarify the recommendation’s intent to ensure that contracting
officers include contract language that designates a specific deployment center for
contractors accompanying U.S. Armed Forces in contingency operations to attend prior
to deployment.

A.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics develop requirements in all DOD contracts supporting
contingency operations that:
       a. Ensure contractor employees accompanying U.S. Armed Forces are aware
of the Uniform Code of Military Justice definition of sexual assault; and
       b. Require DOD contractor employees supporting all combatant commands
contingency operations, including the U.S. Central Command area of responsibility,
to report sexual assault cases to Military law enforcement.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Director, Defense Procurement and Acquisition Policy, Under Secretary of Defense
for Acquisition, Technology, and Logistics [USD(AT&L)], agreed with the
recommendations. The director stated that the USD(AT&L) will revise the Defense
Federal Acquisition Regulation Supplement (DFARS) to ensure that all DOD contracts
supporting contingency operations contain language that ensures that contractor
employees accompanying U.S. Armed Forces are aware of Uniform Code of Military
Justice (UCMJ) jurisdiction and the sexual assault definition established by the Sexual
Assault Prevention and Response (SAPR) Program in DOD Instruction 6495.02.
However, the director stated that the USD(AT&L) did not agree that the office exhibited
an internal control weakness by not providing contractual coverage of contractor
awareness and compliance with UCMJ jurisdiction. The director opined that DFARS
clause 252.225-7040 specifically provided such coverage. Additionally, the director
stated that the USD(AT&L) will revise the DFARS to require UCMJ offenses involving
contractors to be reported to law enforcement. Further, the director issued Class
Deviation 2009-O0014, “Additional Requirements and Responsibilities Relating to
Alleged Crimes by or Against Contractor Personnel in Iraq and Afghanistan,” which

                                           15


requires contractors during contingency operations in Iraq and Afghanistan to report all
alleged offenses under the UCMJ and Military Extraterritorial Jurisdiction Act to the
appropriate law enforcement.

Our Response
The USD(AT&L) comments were responsive and meet the intent of Recommendation
A.1.a. The Director, Defense Procurement and Acquisition Policy, stated that the
USD(AT&L) will revise the DFARS to heighten contractor awareness of UCMJ
jurisdiction covering contractors, the SAPR program, and the sexual assault definition in
DOD Instruction 6495.02. However, the sexual assault definition established in the SAPR
program policy is found in DOD Directive 6495.01. Further, the SAPR program policy
in DOD Directive 6495.01 and DOD Instruction 6495.02 do not apply to contractor
employees. Therefore, contractor awareness of the SAPR program and its sexual assault
definition will not be ensured until the USD(P&R) modifies the current SAPR policy to
establish prevention, awareness, and reporting requirements that apply to contractor
employees (see Recommendation A.2). In order for the USD(AT&L) to heighten SAPR
program policy awareness to contractors in the DFARS, the USD(AT&L) needs to
coordinate with USD(P&R) to determine if and when the SAPR policy will be modified
to apply to contractor employees accompanying U.S. Armed Forces in contingency
operations.

The Director, Defense Procurement and Acquisition Policy, did not agree that the
USD(AT&L) did not provide contractual coverage of contractor awareness and
compliance with UCMJ jurisdiction, thus exhibiting an internal control weakness.
However, the report did not state that USD(AT&L) did not establish contractual
requirements to ensure contractor awareness and compliance with UCMJ jurisdiction, but
rather that USD(AT&L) did not ensure awareness of the UCMJ definition of sexual
assault. We agree with the USD(AT&L) that DFARS clause 252.225-7040 was the
control established to notify contractors that they were subject to the jurisdiction of the
UCMJ, thus prosecutable under all offenses under the UCMJ including sexual assault.
However, our observation that 8 of 10 DOD contractors reviewed did not have policies or
training requirements for awareness, prevention, and reporting of sexual assault indicates
that the USD(AT&L) internal control needs to be improved.

We considered the USD(AT&L) comments to Recommendation A.1.b responsive and
they meet the intent of the recommendation. On December 14, 2009, the Director,
Defense Procurement and Acquisition Policy, required Class Deviation 2009-O0014,
“Class Deviation, Additional Requirements and Responsibilities Relating to Alleged
Crimes by or Against Contractor Personnel in Iraq and Afghanistan,” to be included in all
new and existing solicitations and contracts involving performance in Iraq and
Afghanistan. In addition to requiring contractors to report alleged UCMJ offenses,
including sexual assault, to the appropriate investigative authorities, the deviation
requires contractors to provide all contractor employees with information on how and
where to report alleged crimes and resources for victim and witness protection and
assistance. We commend the USD(AT&L) for its efforts in issuing the Class Deviation
2009-O0014.

                                            16

U.S. Central Command Comments
Although not required to comment, the Chief of Staff agreed with the recommendations.
However, the Chief of Staff suggested that the report include subsection (m) of
Article 120 of the UCMJ, “wrongful sexual contact,” as an all-inclusive offense that
defines sexual assault. For a full text of U.S. Central Command comments, see the
Management Comments section of the report.

Our Response
We discussed the UCMJ definition of wrongful sexual contact in Appendix D of the draft
report. See Appendix E in the final report.

Department of the Army Comments
Although not required to comment, the Assistant Secretary of the Army (Manpower and
Reserve Affairs) stated that the recommendation to require contractor employees to
report sexual assault cases to Military law enforcement would result in an increased
number of sexual assault cases reported to the Army Criminal Investigative Command for
investigation. Further, the Assistant Secretary of the Army stated that the report should
address the funding required for the Army to hire the additional investigative and medical
personnel needed to handle the increased workload that would result from contractor
employees reporting sexual assaults to Army Criminal Investigative Command. For the
full text of Army comments, see the Management Comments section of the report.

Our Response
As part of our audit, we reviewed laws, Federal Acquisition Regulations (FAR), DFARS,
DOD Instructions, and other DOD guidance to determine whether DOD established
relevant criteria and contract clauses that address contractor awareness, prevention, and
reporting of sexual assault. We did not review the Army’s manpower and budget data;
therefore, we defer Army manpower and budget concerns and decisions to Army
management.

A.2. We recommend that the Under Secretary of Defense for Personnel and
Readiness:
      a. Modify DOD Directive 6495.01, “Sexual Assault Prevention and Response
(SAPR) Program,” and DOD Instruction 6495.02, “Sexual Assault Prevention and
Response Program Procedures,” to:
             1. Establish prevention, awareness, and reporting requirements and
      procedures specifically for DOD contractors who are U.S. citizens and
      accompany the U.S. Armed Forces in contingency operations; and
             2. Direct the Military Services to track and annually report alleged
      sexual assault cases involving DOD contractors for incorporation into the
      annual DOD Sexual Assault Report to Congress.
      b. Establish guidance to ensure that combatant commanders require
mandatory training on sexual assault prevention, reporting, and response for
contractor employees prior to deployment to contingency operations.


                                           17

Under Secretary of Defense for Personnel and Readiness
Comments
The USD(P&R) agreed with Recommendations A.2.a.1 and A.2.b. The USD(P&R)
stated that the Sexual Assault Prevention and Response Office (SAPRO) will be directed
to expand the current SAPR policy in DOD Directive 6495.01 and DOD Instruction
6495.02 to include DOD contractors who are U.S. citizens and accompany U.S. Armed
Forces in contingency operations outside of the continental U.S. As a result, those DOD
contractors will be provided with restricted and unrestricted reporting options. Further,
the USD(P&R) stated that the office will direct SAPRO to coordinate with USD(AT&L)
to develop guidance on sexual assault prevention, awareness, and reporting training
requirements for DOD contractors who are U.S. citizens and accompany the U.S. Armed
Forces in contingency operations.

The USD(P&R) did not agree with Recommendation A.2.a.2. The USD(P&R) stated that
the recommended requirement for DOD contractors to report alleged sexual assault
crimes in the DOD Sexual Assault Report to Congress would undermine the USD(P&R)
planned extension of the SAPR program to specific DOD contractors. Specifically, the
USD(P&R) was concerned with the reliability of contractor-reported data and potential
duplication of data collected and reported by both DOD contractors and the Military
Services. The USD(P&R) believed that the planned expansion of the SAPR program, to
include reporting options made available to specific DOD contractors, will already allow
sexual assault crimes reported to Military health care providers or Military investigators
to be tracked through the Defense Sexual Assault Incident Database. This database is
currently under development and will provide verifiable sexual assault crime data for
inclusion in the annual report to Congress.

Our Response
The USD(P&R) comments were responsive and meet the intent of Recommendations
A.2.a.1 and A.2.b. We acknowledged that the draft report language for Recommendation
A.2.a.2 did not adequately convey the intent of the recommendation, which was to place
the responsibility of managing and reporting contractor sexual assault data with the
Military Services. Therefore, we revised the recommendation to provide clarity. Based
on the revision to the recommendation, we also considered the USD(P&R) comments
responsive to Recommendation A.2.a.2.

U.S. Central Command Comments
Although not required to comment, the Chief of Staff agreed with the recommendations.




                                           18


Department of the Army Comments
Although not required to comment, the Assistant Secretary of the Army (Manpower and
Reserve Affairs) did not agree with Recommendations A.2.a.1 and A.2.a.2 as written.
The Assistant Secretary noted that Recommendation A.2.a.1 is intended to establish
sexual assault awareness, prevention, and reporting requirements for “DOD contractors”
who are U.S. citizens, but suggested that the recommendation should be intended for
“DOD contract employees.” The Assistant Secretary of the Army also stated that the
recommendation should not exclude contractor employees who are not U.S. citizens.
Regarding Recommendation A.2.a.2, the Assistant Secretary of the Army stated that the
validity of the Military law enforcement sexual assault data would be better than
contractor-reported data and that DOD would incur additional costs if the contractor is
required to track and annually report sexual assault data. The Assistant Secretary of the
Army stated that duplicative reporting could occur when both Military law enforcement
and DOD contractors are tracking and reporting sexual assault cases involving DOD
contractors. Therefore, the Assistant Secretary of the Army suggested revising the
recommendation to require Military law enforcement to track sexual assault cases
involving DOD contractors and annually report the data to Congress.

Our Response
Our reference to DOD contractors who are U.S. citizens in Recommendation A.2.a.1
includes all of the U.S. citizens employed by DOD contractors. Therefore, we believe
that the recommendation language is adequate. Additionally, at the request of Congress,
the scope of our audit only focused on U.S. citizens; therefore, we did not develop
recommendations that would impact contractor employees who are not U.S. citizens. We
also revised Recommendation A.2.a.2 to emphasize that the Military Services should
track and report sexual assault crimes involving DOD contractors.

A.3. We recommend that the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology require all Army contracting officers to ensure that a
specific deployment center is designated in all contracts for contractors
accompanying U.S. Armed Forces prior to deployment to contingency operations.

Department of the Army Comments
The Assistant Secretary of the Army (Manpower and Reserve Affairs) agreed with the
recommendation. However, the Assistant Secretary of the Army suggested that the
recommendation language be revised to be more consistent with DFARS clause 252.225-
7040 and DOD Instruction 3020.41. Specifically, the Assistant Secretary of the Army
suggested that the language be revised to ensure that a specific “pre-deployment training
location” is designated in contracts awarded to contractors accompanying U.S. Armed
Forces instead of a specific “deployment location” as stated in the draft report
recommendation.

Our Response
The Army’s comments were responsive and they meet the intent of the recommendation.
We recognized the Assistant Secretary of the Army’s interpretation of our use of the term


                                           19


“deployment location” as the place of performance, and revised the language to clarify
the original intent of the recommendation, which was for Army contracting officers to
designate in all contracts a specific deployment center for contractor employees to attend
prior to deployment to contingency operations.

U.S. Central Command Comments
Although not required to comment, the Chief of Staff agreed with the recommendation.

A.4. We recommend that the Assistant Secretary of the Air Force for Acquisition
require all Air Force contracting officers to ensure that a specific deployment center
is designated in all contracts awarded to contractors accompanying U.S. Armed
Forces.

Department of the Air Force Comments
The Military Deputy, Assistant Secretary of the Air Force for Acquisition, agreed with
the recommendation. The Military Deputy stated that the Deputy Assistant Secretary of
the Air Force for Contracting will draft a memorandum that directs Air Force contracting
officers to ensure that contractors report to deployment centers that provide sexual assault
prevention and response training, thereby complying with DFARS clause 252.225-7040
and DOD Instruction 3020.41.

Our Response
The Air Force comments were responsive and the planned actions meet the intent of the
recommendation.

U.S. Central Command Comments
Although not required to comment, the Chief of Staff agreed with the recommendation.




                                            20


Finding B. Contractor Self-Deployment
Training
The Army Deputy Chief of Staff, G-3/5/7, and Air Force contracting officers did not
provide adequate oversight of the contractor deployment training for sexual assault
prevention and response in support of Operations Enduring Freedom (OEF) and Iraqi
Freedom (OIF) areas of operation. The contractor deployment training for sexual assault
prevention and response lacked adequate oversight because the Army Deputy Chief of
Staff, G-3/5/7, inappropriately approved the Kellogg, Brown, and Root Services, Inc.
(KBR) Continental United States Replacement Center (CRC) and Fluor Corporation
(Fluor) CRC operations. Specifically, the Deputy Chief of Staff determined that the KBR
and Fluor pre-deployment training met Government standards, despite the contractors’
sexual assault awareness and reporting training not meeting the minimum U.S. Central
Command (CENTCOM) theater-specific individual requirement training (TSIRT) offered
to DOD personnel at the Army CRC, as required by DOD Instruction 3020.41.
Additionally, the Air Force contracting officers allowed contractor employees to process
through Tyndall Air Force Base or other sites determined by the contractor without
ensuring that sexual assault prevention and response training was completed. As a result,
U.S. contractor employees deployed in-theater will continue to be at risk of becoming
either victims of or witnesses to sexual assault without effective training on sexual assault
prevention techniques and reporting procedures.

Guidance
DOD Instruction 3020.41, “Contractor Personnel Authorized to Accompany the U.S.
Armed Forces,” October 3, 2005, requires that a deployment center be designated in the
contract for contractors to complete required training. Further, the DOD Instruction
authorizes contracting officers to approve contractor-performed theater admission
processing only after obtaining approval from the Military Component and ensuring that
all DOD deployment center requirements are met.

           6.2.7.11. Contractor-Performed Theater Admission Processing. Contracting officers may
           authorize contractor-performed theater admission processing because of the number of
           CDF,9 frequency of CDF deployment, or large amounts of equipment. Contracting officers
           shall coordinate with and obtain approval from the appropriate Military Department or
           agency and ensure all requirements of the DoD deployment centers are met. Defense
           contractors shall establish initial CDF accountability by entering contractor personnel data in the
           joint database addressed in subparagraph 6.2.6. The DoD Components shall validate CDF
           accountability information in the database at the JRC10 or other points as necessary. The use of
           contractor-performed theater admission processing does not negate the responsibility for all CDF
           to process through the JRC. [Emphasis added]




9
    Contractors Deploying With the Force.
10
    Joint Reception Center.

                                                       21

On June 1, 2006, the Army Training and Doctrine Command developed the Army Sexual
Assault Prevention and Response Program training point of instruction. Fort Benning,
Georgia, which CENTCOM approved as the CRC to process all personnel, including
contractors, for deployment, implemented the training into its curriculum in FY 2007 and
also satisfied the CENTCOM TSIRT. According to a Fort Benning CRC training
official, contractors who attend Fort Benning CRC are required to complete instructor-
based TSIRT, which includes SAPR training in order to qualify for deployment into
theater.

Contractor Deployment
The Army Deputy Chief of Staff, G-3/5/7, office concluded that the KBR and Fluor
CRCs met Government standards for pre-deployment training, despite the training not
being commensurate with the minimum CENTCOM TSIRT. According to an Army
Deputy Chief of Staff, G-3/5/7, official, the KBR and Fluor CRCs were approved for
operations in order to permit them to continue to operate their facilities for deployment
operations while they continued to mirror their pre-deployment training after the Fort
Benning CRC courses. Since April 2007, Fort Benning, Georgia, has been the only
operational DOD CRC authorized to process non-unit-related Military personnel, DOD
civilians, and contractors for deployment to OEF and OIF areas of operation. The DOD
mission in Iraq and Afghanistan has required as many contractor personnel as Military
Service members for deployment. Contractor employees may have to wait as long as 4
weeks to attend the 1-week CRC training because of the high volume of personnel
scheduled for processing. DOD Instruction 3020.41 authorizes contractor-performed
theater admission processing because of the number of contractor employees, frequency
of contractor deployment, or large amounts of equipment. However, the instruction also
requires that contractors meet all DOD deployment center requirements.

Army Oversight
Prior to June 2008, the Army Deputy Chief of Staff, G-1, was the proponent for CRC
operations. However, the Army Deputy Chief of Staff, G-1, never performed a review of
KBR CRC operations, which has been operational for a minimum of 10 years. On
June 27, 2008, the responsibility was transferred to the Army Deputy Chief of Staff,
G-3/5/7, under a memorandum of understanding between the two offices. The Army
Deputy Chief of Staff, G-3/5/7, is the authority on mobilization, training, and validation
of CRC operations. In March 2009, the Army Deputy Chief of Staff G-3/5/7, developed
a draft instruction for validating contractor CRCs annually; however, the guidance has
not been finalized and implemented. On May 29, 2009, the Chief of the Mobilization
Division within the Army Deputy Chief of Staff, G-3/5/7, approved CRC operations11 for
KBR and Fluor and concluded that both contractors met Government standards, despite
the contractors failing to develop DOD-commensurate sexual assault prevention and
response (SAPR) training for their employees to complete.


11
  The Army Chief of Staff, G-3/5/7, referred to the contractor CRC operations as contractor individual
replacement deployment operations in the memorandum dated May 29, 2009; however, the two terms may
be used interchangeably.

                                                  22

KBR Review
During our site visit to the KBR CRC on February 2, 2009, a KBR attorney stated that
KBR did not offer SAPR training to its employees as part of its CRC training program.
The KBR training program included courses on its corporate code of business conduct
and sexual harassment training. On April 8, 2009, an inspection team consisting of
personnel from the Army Deputy Chiefs of Staff, G-3/5/7 and G-4; Army Contracting
Command; and Defense Contract Management Agency conducted a site visit to inspect
the KBR CRC to ensure consistency with the Fort Benning CRC training operations.
This was the first documented trip to inspect the KBR CRC, despite the CENTCOM
SAPR TSIRT requirement being in place since the beginning of FY 2007. The Chief of
the Actions Branch within the Army Deputy Chief of Staff, G-3/5/7, determined that the
KBR CRC did not meet the Fort Benning CRC TSIRT that includes SAPR training.
Despite the pre-deployment training deficiency, the Chief of the Actions Branch
recommended that the Army use the KBR CRC during surge requirements as an option to
process contractors from other companies to OEF and OIF areas of operation. On
April 29, 2009, the Chief of the Logistics Civil Augmentation Program (LOGCAP)
Contracting Branch, within the Department of the Army Rock Island Contracting Center,
instructed KBR to comply with the Army Deployment Processing Center and CRC
guidelines for training and all CRC-related requirements. However, on May 29, 2009,
the Chief of the Mobilization Division within the Army Deputy Chief of Staff, G-3/5/7,
concluded that the KBR CRC met pre-deployment training standards and recommended
that the KBR CRC operations continue. A KBR attorney and project manager both
maintained that KBR did not offer SAPR training, which is part of the CENTCOM
TSIRT, and even requested DOD assistance in developing contractor SAPR training.
Specifically, the KBR attorney stated in an e-mail, dated July 21, 2009:

       I spoke to [the project manager] and he explained that the Army review was a very high level
       review in which the reviewer orally read out a checklist of training provided by the Army in its
       predeployment processing and asked [the project manager] and his team to confirm whether we
       provided similar training. [The project manager] does not recall what exactly the reviewer said
       with regards to sexual assault/harassment training but our folks gave the reviewer the same
       information I previously provided to you, the Female Security Briefing and Preventing
       Discrimination/Harassment in the Workplace training.

       I have also been told that our CRC team and Employee Relations Group are working on
       putting together a sexual assault prevention training. If there are specific training materials
       that the military uses and that we can use as a guideline we would greatly welcome having
       access to them. [Emphasis added]

According to the Army Contracting Command LOGCAP Operations and Readiness
Branch Chief, his office did not conduct an initial site visit prior to April 2009 because
the KBR CRC had already been operational for many years and he assumed the CRC
would be in compliance with most of the Fort Benning CRC requirements. Based on the
pre-deployment training material reviewed during our site visit in February 2009 and
KBR officials’ e-mail testimony, the Chief of the Mobilization Division within the Army
Deputy Chief of Staff, G-3/5/7, should not have concluded that the KBR CRC met Army
pre-deployment training standards, which includes SAPR training. We believe the Chief

                                                  23


of Staff of the Army should require the Army Deputy Chief of Staff, G-3/5/7, to perform
a detailed review of KBR CRC operations to ensure all aspects of the training, including
SAPR, meet the requirements of the Fort Benning CRC training before approving the
KBR CRC for operations.

KBR SAPR Training Update
In October 2009, following our audit site visit in February 2009, and the Army Deputy
Chief of Staff, G-3/5/7, site visit in April 2009, KBR developed a draft SAPR training
briefing, “Draft KBR LOGCAP III Sexual Assault Prevention and Response.” However,
KBR’s SAPR training has not been finalized and implemented into the KBR CRC
operations. Further, the KBR SAPR training applies to contractor employees assigned to
the LOGCAP III project and excludes employees assigned to other projects that support
contingency operations in OEF and OIF areas of operation.

Fluor Review
The inspection team led by the Army Deputy Chief of Staff, G-3/5/7, conducted a site
visit at the Fluor CRC on April 10, 2009, to inspect contractor TSIRT for compliance
with Fort Benning CRC training. Based in part on the Army Contracting Command
LOGCAP Operations and Readiness Branch Chief’s findings that Fluor was conducting
SAPR training, the Army Deputy Chief of Staff, G-3/5/7, Mobilization Division Chief
concluded that the Fluor CRC met all Government standards for deployment operations
on May 29, 2009. While Fluor did offer SAPR training, the Army did not review the
training for adequacy.

The Fluor SAPR training is offered to employees through an electronic presentation that
cites excerpts from Army Regulation 600-20, chapter 8, “Sexual Assault Prevention and
Response Program,” which includes the Army’s sexual assault definition and program
goals. The Army definition used by Fluor states:

       Sexual assault is a crime defined as intentional sexual contact, characterized by use of force,
       physical threat or abuse of authority or when the victim does not or cannot consent. Sexual assault
       includes rape, nonconsensual sodomy (oral or anal sex), indecent assault (unwanted, inappropriate
       sexual contact or fondling), or attempts to commit these acts… “Consent” will not be deemed or
       construed to mean the failure by the victim to offer physical resistance. Consent is not given when
       a person uses force, threat of force, or coercion or when the victim is asleep, incapacitated, or
       unconscious.

Fluor SAPR training was partially consistent with Army SAPR training by providing its
employees with the awareness of acts that constitute sexual assault and its legal
classification as a felony offense; however, Fluor’s reporting procedures were inadequate
and inconsistent with the Army SAPR training. Specifically, one of Fluor’s training
objectives was to provide confidential reporting to Fluor supervisors and human resource
representatives as the only method for reporting sexual assaults. The Army SAPR
training offered at the Fort Benning CRC reinforces the Army SAPR guidance from
Army Regulation 600-20, which provides Military personnel with procedures for
unrestricted reporting to Military law enforcement for criminal investigation and
restricted reporting to victim advocates, sexual assault response coordinators, health care


                                                  24


providers, and chaplains. Most state statutes require unrestricted reporting of injuries that
result from criminal conduct such as sexual assault, and a few state statutes require
unrestricted reporting specifically for sexual assault.12 However, since contractor
employees are living and working in Iraq and Afghanistan, Federal statutes would be
more applicable, but there are no Federal statutes that address sexual assault reporting
options. With the absence of Federal statutes that address how contractor employees may
report a sexual assault, a sexual assault incident should, at a minimum, be reported to
local law enforcement since it is a criminal offense. However, Fluor instructed its
employees in Iraq and Afghanistan to report sexual assault incidents to internal company
representatives and provided no additional procedures for notifying local Military law
enforcement of such crimes for criminal investigation. The Army Deputy Chief of Staff,
G-3/5/7, performed a review of the Fluor CRC training to ensure that the contractor was
providing SAPR training, which is a CENTCOM TSIRT area. The Army Deputy Chief
of Staff, G-3/5/7, should have also reviewed the actual training content for adequacy in
preparing and protecting contractor employees who are members of the DOD total force
in Iraq and Afghanistan.

Air Force Oversight of the Contractor Deployment Process
Of the six Air Force contracts that did not designate a deployment center location as
required by DOD Instruction 3020.41, two contracts were awarded to Innovative
Technical Solutions, Inc. (ITSI). The ITSI Human Resources Director and Project
Manager stated that ITSI provided its own in-theater training, which did not include
sexual assault prevention training. In addition, contractor employees deployed from their
home cities in the United States to Iraq and Afghanistan without obtaining the benefit of
receiving SAPR training at the Fort Benning CRC. Air Force contracting personnel
explained that the Air Force contracting officers did not designate a deployment center
for ITSI because the contracting officers delegated deployment processing and selection
of deployment center to the contractor. In addition, Air Force contracting officers did not
verify that the contractors satisfied the CENTCOM TSIRT.

In accordance with DOD Instruction 3020.41, the Air Force contracting officer
designated Tyndall Air Force Base as the deployment center for Readiness Management
Support, LC (RMS) on contract FA3002-06-D-0006. While the Tyndall Air Force Base
deployment process involved medical, dental, and security screenings, the deployment
process did not include SAPR training. The Fort Benning CRC required contractors to
complete the SAPR TSIRT. The lack of consistency in deployment training requirements
can be attributed to CENTCOM not standardizing the TSIRT requirements for all
contractors to ensure that SAPR training was completed prior to deployment, regardless
of the contractor’s deployment center location. Therefore, the Air Force contracting
officer was not required to ensure that RMS employees completed SAPR training at
Tyndall Air Force Base.


12
  The conclusion on state statute coverage of sexual assault reporting was taken from a SAPR Report,
“Rape and Sexual Assault Reporting Requirements for Competent Adult Victims,” January 11, 2007.


                                                   25


Air Force contracting officers need to ensure that the designated deployment centers offer
the mandatory TSIRTs, including SAPR training, as required by DOD Instruction
3020.41.

Conclusion
Inadequate oversight of DOD contractors’ deployment training processes in order to
expedite execution of contracted work could jeopardize the DOD operations that the
contractor employees support. Specifically, the Air Force contracting officers’ failure to
designate a deployment center contributed to ITSI employees not completing required
SAPR training. Additionally, the Army officials’ review and approval of the KBR and
Fluor CRC operations did not ensure that the contractors had adequate SAPR training
that was comparable to the requirements at Fort Benning CRC. The objective of the
SAPR training offered at the Fort Benning CRC is to eliminate occurrences of sexual
assault by providing attendees with information that promotes awareness, prevention, and
reporting of sexual assault. While the SAPR training is tailored towards Military
personnel, the Fort Benning CRC requirement that all contractor employees must
complete the SAPR training adds value to the DOD total force by protecting all
components of the DOD total force through awareness and prevention. When Military
Components and contracting officers do not ensure that the DOD interests are protected
by ensuring that contractor employees are aware of effective sexual assault prevention
techniques and reporting procedures through SAPR training, the operational effectiveness
of the DOD total force is potentially weakened.

Recommendations, Managements Comments, and Our
Response
B.1 We recommend that the Chief of Staff of the Army require the Army Deputy
Chief of Staff, G-3/5/7, to:
       a. Review DOD contractor deployment operations and ensure that the
minimum U.S. Central Command deployment training requirements are met before
approving DOD contractor individual replacement deployment operations, as
required by DOD Instruction 3020.41, “Contractor Personnel Authorized to
Accompany the U.S. Armed Forces”; and
       b. Review the adequacy of contractor deployment training, including sexual
assault prevention and response training, to ensure that the contractor training is
comparable to theater-specific individual requirement training offered at the Army
Continental United States Replacement Centers.

Department of the Army Comments
The Assistant Secretary of the Army (Manpower and Reserve Affairs) agreed with both
of the recommendations. The Assistant Secretary indicated that the Army Deputy Chief
of Staff, G-3/5/7, is reviewing the contract statement of work and training requirements
to ensure compliance with the U.S. Central Command’s theater-specific individual
requirements training for pre-deployment. Additionally, the Assistant Secretary stated
that the Army Deputy Chief of Staff, G-3/5/7, will use the U.S. Central Command’s

                                           26


required theater-specific training curriculum as a benchmark to measure the adequacy of
the contractor pre-deployment training course curriculum.

Our Response
The Army’s comments are responsive and the planned actions meet the intent of the
recommendation.

U.S. Central Command Comments
Although not required to comment, the Chief of Staff agreed with the recommendations.

B.2. We recommend that the Assistant Secretary of the Air Force for Acquisition
require Air Force contracting officers to ensure that designated deployment centers
offer deployment training for contractors that meets all U.S. Central Command
deployment requirements, such as sexual assault prevention and response training,
as required by DOD Instruction 3020.41.

Department of the Air Force Comments
The Military Deputy, Assistant Secretary of the Air Force for Acquisition, agreed with
the recommendation. The Military Deputy stated that the Deputy Assistant Secretary of
the Air Force for Contracting will obtain a list from U.S. Central Command of
deployment centers that offer sexual assault prevention and response training.
Additionally, the Deputy Assistant Secretary will direct Air Force contracting officers to
comply with DOD Instruction 3020.41 by establishing a requirement in the statement of
work that directs contractors to attend the deployment centers that offer sexual assault
prevention and response training.

Our Response
The Air Force comments are responsive and the planned actions meet the intent of the
recommendation.

U.S. Central Command Comments
Although not required to comment, the Chief of Staff agreed with the recommendation.




                                            27


Appendix A. Scope and Methodology
We conducted this performance audit from June 2008 through November 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

As part of our audit, we reviewed 22 contracts awarded to 10 DOD contractors to identify
the policies, procedures, and contractual requirements that address prevention of sexual
assault and sexual harassment and contractor accountability. Specifically, we reviewed
laws, Federal Acquisition Regulations (FAR), Defense Federal Acquisition Regulations
(DFARS), DOD Instructions, Joint Contracting Command clauses, and Secretary of
Defense guidance to obtain relevant criteria and contract clauses that address prevention
of sexual assault and sexual harassment and contractor accountability. Additionally, we
reviewed contractor training material to determine whether contractors provided their
employees with sexual assault and sexual harassment awareness.

The 10 DOD contractors were selected based on the following criteria: U.S.-based
companies; contracting actions awarded in FY 2006 and FY 2007; and combined
FY 2006 and FY 2007 contracting actions equal to or exceeding $250 million. The
contractors reviewed were AECOM; Environmental Chemical Corporation; Fluor
Corporation; ITT Corporation, Systems Division; Innovative Technical Solutions, Inc.;
Kellogg, Brown, and Root Services, Inc.; L-3 Communications; Parsons Corporation;
Readiness Management Support, LC; and Tetra Tech, Inc.

We selected 22 contracts awarded to 10 contractors based on the following criteria: a
minimum dollar threshold of $5 million; work place of performance in Iraq and
Afghanistan; and contracts for services. The 22 contracts were awarded between
FY 1997 and FY 2006. The list of contracts is shown in Table C-1 in Appendix C.

We met with personnel from the Sexual Assault Prevention and Response Office, Under
Secretary of Defense for Personnel and Readiness; Defense Procurement and Acquisition
Policy, Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics; and personnel from Army, Air Force, Marine Corps, Navy, and U.S. Army
Corps of Engineers contracting commands and manpower and reserve affairs offices in
July and August 2008. We performed site visits at each of the contractor locations from
November 2008 through February 2009 to review contractor company policies and
procedures applicable to only U.S. citizens that address sexual assault and sexual
harassment awareness, prevention, and reporting. The contractor site visits were a
coordinated effort with personnel from the DOD Office of Inspector General, Assistant
Inspector General for Investigative Policy and Oversight, in support of their Report No.
IPO2010E001, “Evaluation of DOD Sexual Assault Response In Operations Enduring
and Iraqi Freedom Areas of Operation,” February 1, 2010. We also visited the Fort


                                           28


Benning Continental United States Replacement Center (CRC) in April 2009 to review
deployment training requirements. While at the CRC, we attended the sexual assault
prevention and response training course completed by Military, civilian, and contractor
personnel.

Use of Computer-Processed Data
We relied upon computer-processed data through the use of Federal Procurement Data
System – Next Generation and the Army Contracting Business Intelligence System to
select contracts and task orders to review for contractual language that addressed sexual
assault and sexual harassment specifically in the areas of prevention and assistance and
contractor accountability. The Federal Procurement Data System – Next Generation is a
Web-based tool for Federal agencies to report contract actions. The Army Contracting
Business Intelligence System is an Army contract database used by the U.S. Army Corps
of Engineers that extracts and stores all U.S. Army Corps of Engineers contract actions.
We did not assess the reliability of the Federal Procurement Data System – Next
Generation because it is a Government-wide system that stores contract data that the
Director, Defense Procurement and Acquisition Policy, verifies and validates annually
with the most recent verification and validation approved for FY 2007, which is the
ending time period of our contract data. Further, we assessed the reliability of the Army
Contracting Business Intelligence System by comparing the data with the source hard
copy contract task orders, which resulted in minimal discrepancies. The Federal
Procurement Data System – Next Generation and Army Contracting Business
Intelligence System were relied upon to select contracts for review of contractual
provisions relating to sexual assault and sexual harassment only; therefore, the reliability
of the databases did not significantly affect our audit results.

Prior Coverage
No prior coverage has been conducted on DOD policies on sexual assault and sexual
harassment regarding DOD contractors during the last 5 years.




                                             29


Appendix B. Congressional Request
Memorandum



     Claude M. Kicklighter
     Inspector General
     Department of Defense
     400 Army Navy Drive
     Arlington, Virginia 22202-4704

     April 21, 2008

     Dear Inspector General:

     Thank you for your letter informing us of the IG's evaluation of the 000 response to
     sexual assault in operations in Iraq and Afghanistan. While we find it encouraging that
     the 000 has charged the Inspector General to address our concerns, we urge you to
     expand the scope of the IG's effort. Additionally, we request to be involved throughout
     and receive regular updates of the IG's evaluation.

     The affidavits filed in the case of Jamie Leigh Jones show an alarming pattern of
     widespread sexual assault and harassment among government contracted employees,
     environments that condone and support such behavior, and retaliation against victims
     who come forward regarding these crimes. Indeed it seems contractors prefer to sweep
     allegations under the rug and out ofthe public view because billions of dollars, taxpayer
     dollars, are at stake.

     According to the IG's Memorandum, the scope of the evaluation is limited to policies and
     procedures following a sexual assault. Certainly, the case of Jamie Leigh Jones and
     others indicate that the aftermath of sexual assault is critical. However, we believe the
     severity of the situation requires a far broader investigation.

     In addition to the IG's current objectives, please investigate 000 Contractors in the
     following areas of concern:

     Prevention and Assistance
     Has the 000 provided government contracted employees with sexual assault and sexual
     harassment training and who is providing that training? Has the 000 provided such
     employees American citizens with information regarding their rights as crime victims
     and available resources for dealing with the aftermath of victimization? What is the 000
     doing to assist Americans living and working in Iraq that are victims of crime? Does the
     000 include language in contracts requiring contractors to ensure their employees live
     and work in non-hostile/non-violent environments? What is the DoD's policy for
     mandating that such language is included in all contractor employment agreements?

     Offenders
     What is the 000 policy for dealing with alleged offenders? What safety mechanisms are
     put in place after a report of sexual assault to ensure the safety of the victim and other
     potential victims? Are the alleged offenders removed or suspended ii-om their position?




                                                 30


Appendix B. Congressional Request
Memorandum (cont’d)



     Contractor Accountability
     What types of control and enforcement policies does the DoD have over KBR and other grantees
     of DoD contracts when their employees commit violent crimes?          Were there contractual
     repercussions for KBR following the above accusations? Are DoD contractors required to inform
     DoD when complaints of sexual assault and harassment are lodged against contracted
     employees?

     Finally, as your letter states, the IG announced an evaluation of DoD policy and practices to
     ensure sexual assaults in Operation Iraqi Freedom are properly processed.              The hostile
     environment towards women including sexual harassment and assault among DoD contactors
     calls for an investigation by the IG. We hope that you will revise your effOli accordingly.


     Thank you for your consideration of our requests.



     Sincerely,




                    e
                   Member of Congress                     Member of Congress




     Cc: Department of Defense Secretary Robert Gates




                                                   31


Appendix C. Audit Response to
Congressional Questions
On April 21, 2008, Representatives Louise Slaughter, Henry Waxman, Bob Filner, Ted
Poe, and Jane Harman requested the DOD Office of Inspector General (OIG) to review
DOD contractors in the areas of prevention and assistance, handling of offenders, and
contractor accountability due to concerns about sexual assault and harassment allegations
among Government-contracted employees. The DOD OIG, Deputy Inspector General
(IG) for Auditing, collaborated with the Assistant IG for Investigative Policy and
Oversight (AIG-IPO) to respond to questions that were specific to the Components’
respective expertise. Audit responses are discussed below. AIG-IPO responses are
discussed in Appendix D.

Congressional Question 1. “Has the DoD provided government contracted employees
with sexual assault and sexual harassment training and who is providing that training?”

Response 1. Partially. The Army requires all personnel who attend the only existing
Continental United States Replacement Center (CRC) at Fort Benning, Georgia, to
complete theater-specific individual requirement training, which includes Sexual Assault
Prevention and Response (SAPR) and Prevention of Sexual Harassment training courses
developed by the Army Training and Doctrine Command. However, contractor
employees attend the Army CRC only when it is written in their contracts. Contractor
employees who do not attend the Fort Benning CRC do not receive DOD-instructed
sexual assault and sexual harassment training. Other DOD locations such as Tyndall Air
Force Base used by the Air Force and the Transatlantic Program Center used by the U.S.
Army Corps of Engineers are utilized for some aspects of deployment processing;
however, those deployment centers are not approved CRCs.

Based on our review of 10 DOD contractors’ policies, we determined that all of the
contractors provided their company versions of sexual harassment training to their
employees, but only 2 of the 10 contractors (Fluor Corporation and Readiness
Management Support, LC) provided sexual assault prevention training. Additionally, we
identified that 2 of the 10 contractors (Kellogg, Brown, and Root Services, Inc. and Fluor
Corporation) were authorized by DOD to operate their own contractor deployment
training programs. DOD Instruction 3020.41 requires that the contractor deployment
training programs meet DOD CRC deployment training standards, which include sexual
assault prevention and response training. However, DOD has not ensured that these
standards are being adequately met by the contractors (Finding B).

Congressional Question 2. “Has the DoD provided such employees – American citizens
– with information regarding their rights as crime victims and available resources for
dealing with the aftermath of victimization? What is the DoD doing to assist Americans
living and working in Iraq that are victims of crime?”

Response 2. AIG-IPO addresses these questions in Appendix D.

                                            32

Congressional Question 3. “Does the DoD include language in contracts requiring 

contractors to ensure their employees live and work in non-hostile/non-violent 

environments?” 


Response 3. Yes. We identified several contract clauses and a DOD instruction that 

provided requirements that could contribute to contractor employees living and working 

in nonhostile/nonviolent work environments. 


Defense Federal Acquisition Regulation Supplement (DFARS) clause 252.225-7040, 

“Contractor Personnel Supporting a Force Deployed Outside the United States,” 

June 2005,* requires contractor personnel who accompany Armed Forces outside the U.S. 

to comply with U.S. laws, regulations, directives, instructions, policies, and procedures. 

We identified that 12 of 22 contracts contained provisional language that required 

contractors to comply with U.S. laws; 1 contract did not contain the clause even though it 

was required to be in the contract; and the remaining 9 contracts were not required to


contain the clause because either the contracts were awarded before the clause was 

effective or the contracts were granted a DFARS deviation. See Table C-1 for details. 


Federal Acquisition Regulation (FAR) clause 52.203-13, “Contractor Code of Business 

Ethics and Conduct,” December 2007, requires the contractor to have a written code of 

business ethics and conduct and an ongoing business ethics and conduct awareness 

program. However, none of the 22 contracts reviewed required the 10 DOD contractors 

to have a written code of business ethics and conduct because the requirement was not 

effective until after the contracts were awarded and therefore, did not apply. 

Additionally, FAR Subpart 3.10, “Contractor Code of Business Ethics and Conduct,” 

December 2007, exempted contractors performing work entirely outside of the United 

States from having a written code. See Table C-1 for details. In December 2008, 

FAR 3.10 was revised to eliminate the place of performance exemption for the inclusion 

of FAR 52.203-13. Additionally, in December 2008, FAR 52.203-13 was revised to 

require contractors to exercise due diligence to prevent and detect criminal conduct and 

otherwise promote an organizational culture that encourages ethical conduct and a 

commitment to compliance with the law. 


FAR 52.222-26, “Equal Opportunity,” March 2007, requires contractors to comply with 

Executive Order 11246, “Equal Employment Opportunity,” and prohibit discrimination 

against any employee or applicant for employment because of race, color, religion, sex, 

or national origin. Twenty-one contracts included Equal Employment Opportunity 

provisions that prohibited all forms of discrimination, including sexual harassment. See 

Table C-1 for details. 



*
  The requirement for contractors accompanying Armed Forces outside of the U.S. to comply with U.S.
laws, regulations, directives, instructions, policies, and procedures originated in the June 2005 version of
DFARS 252.225-7040; therefore, this version was used as the criteria to analyze the 22 sampled DOD
contracts for compliance. The same requirement is still included in the July 2009 version of DFARS
252.225-7040.

                                                      33

FAR 52.222-27, “Affirmative Action Compliance Requirements for Construction,”
February 1999, requires contractors to maintain a working environment free of
harassment, intimidation, and coercion at all construction sites. This clause is restricted
to only construction contracts. We determined that 12 of 22 contracts included
provisions for the contractor to maintain a harassment-free environment; 1 of 22 contracts
did not include the required provision; and 9 of 22 contracts were not construction
contracts; therefore, the contracts were exempt from the clause. See Table C-1 for
details.

DOD Instruction 3020.41, “Contractor Personnel Authorized to Accompany the U.S.
Armed Forces,” October 2005, and DFARS 252.225-7040, June 2005, require the
contracting officer to designate a Military deployment center or a contractor deployment
training center for the contractor to attend to ensure completion of required DOD
deployment training. We determined that 9 of 22 contracts contained designated
deployment centers for contractors; 7 of 22 contracts did not designate a required
deployment center (6 Air Force contracts and 1 Army contract); and 6 of 22 contracts
were not required to have a designated deployment center because the original
requirement was not effective when the contracts were awarded. See Table C-1 for
details.

U.S. Central Command (CENTCOM) includes Sexual Assault Prevention and Response
and Prevention of Sexual Harassment training courses as part of the deployment training
requirements for its areas of responsibility. These training courses, if completed by
contractor employees, should contribute to a nonhostile/nonviolent work environment.
However, based on our review of 22 sampled contracts, DOD contracting officers did not
always designate a deployment center and ensure that contractor employees complete the
SAPR training course (Finding B).

Congressional Question 4. “What is the DoD’s policy for mandating that such language
is included in all contractor employment agreements?”

Response 4. DOD does not have any policies that mandate specific language be included
in contractor employment agreements.

Congressional Question 5. “What is the DoD policy for dealing with alleged
offenders?”

Response 5. AIG-IPO addresses this question in Appendix D.

Congressional Question 6. “What safety mechanisms are put in place after a report of
sexual assault to ensure the safety of the victim and other potential victims? Are the
alleged offenders removed or suspended from their position?”

Response 6. AIG-IPO addresses these questions in Appendix D.



                                            34

Congressional Question 7. “What types of control and enforcement policies does the
DoD have over KBR and other grantees of DoD contracts when their employees commit
violent crimes?”

Response 7. DOD can enforce Federal and Military law under the Uniform Code of
Military Justice (UCMJ). On October 17, 2006, the UCMJ (10 U.S.C. §802) extended
legal jurisdiction over DOD contractor personnel serving with or accompanying Armed
Forces personnel overseas in contingency operations. Further, section 920 of the UCMJ
establishes sexual assault as a felony and states that any person who commits sexual
assault is punishable under court-martial. We identified 4 of 22 contracts that included
language that informed DOD contractors that they were subject to the UCMJ; the
remaining 18 contracts did not contain UCMJ provisions because the law was not passed
until after the contracts were awarded. See Table C-1 for details. Contractors have also
been notified of the UCMJ applicability to contractors in DOD guidance and DFARS
clauses in contracts.

On March 10, 2008, the Secretary of Defense issued a memorandum, “UCMJ Jurisdiction
Over DoD Civilian Employees, DoD Contractor Personnel, and Other Persons Serving
With or Accompanying the Armed Forces Overseas During Declared War and in
Contingency Operations,” which provides additional guidance to commanders on the
exercise of their UCMJ authority during contingency operations. Specifically, the
Secretary of Defense granted commanders authority to inquire about or investigate any
crime allegedly committed by any person, including contractors, that is subject to UCMJ
and Military Extraterritorial Jurisdiction Act (MEJA) jurisdiction. Additionally, Military
law enforcement is authorized to apprehend, detain, and arrest all persons subject to the
UCMJ and MEJA.

DFARS 252.225-7040 states that any contractor personnel who commit crimes outside
the United States, that if committed in the U.S. would constitute an offense punishable by
imprisonment for more than 1 year, may potentially be subject to the criminal jurisdiction
of the United States in accordance with the MEJA.

Congressional Question 8. Are there contractual repercussions for DOD contractors
when their contractor employees commit violent crimes?

Response 8. Yes. The FAR and DFARS prescribe contractual repercussions for
contractors or contractor employees who commit criminal acts. We identified 12 of
22 DOD contracts that contained language related to contractors who either commit
violations of law or approve or are aware of contractor employees’ violations of law. We
identified one contract that did not contain any DFARS language that addressed
contractual repercussions. We identified nine contracts that were not required to include
such language because either the requirement was not effective until after the contracts
were awarded or the contracts were granted a DFARS deviation. See Table C-1 for
details.




                                           35

FAR Subpart 9.406-5, “Debarment,” October 1995, provides the Government with the 

option of imposing debarment or suspension as sanctions against a contractor to protect 

the Government’s interest when the agent of the contractor, such as an employee, 

engages in fraudulent, criminal, or other seriously improper conduct with the contractor’s 

knowledge or approval. 


DFARS clause 252.225-7040 is a clause included in DOD contracts that authorizes the 

contracting officer to direct the contractor, at its own expense, to remove and replace any 

contractor personnel who jeopardizes or interferes with mission accomplishment or who 

fails to comply with or violate applicable requirements of the contract.



Congressional Question 9. “Are DoD contractors required to inform DoD when 

complaints of sexual assault and harassment are lodged against contracted employees?”



Response 9. Yes. For certain violations, public law and contractual requirements 

obligate contractors to report complaints against contractor employees. None of the 

22 DOD contracts we reviewed included language that required contractors to report 

ethical violations or violent criminal complaints because the law and contract 

requirements were either not effective until after the contracts were awarded or were 

exempt from the requirement because the contracts involved work performed outside of 

the United States or both. See Table C-1 for details. 


The National Defense Authorization Act of 2009 (Public Law 110-417), 

October 14, 2008, section 854, requires DOD to establish mechanisms for ensuring that 

contractors are required to report offenses, such as sexual assault, covered under the 

UCMJ or MEJA that are alleged to have been committed by or against contractor 

personnel to appropriate investigative authorities. On December 14, 2009, the Director, 

Defense Procurement and Acquisition Policy, complied with the public law mandate by 

issuing Class Deviation 2009-O0014. The class deviation provided DFARS clause 

252.225-7997, “Additional Requirements and Responsibilities Relating to Alleged 

Crimes by or Against Contractor Personnel in Iraq and Afghanistan,” which is required to 

be included in all new and existing solicitations and contracts involving performance in 

Iraq and Afghanistan. DFARS clause 252.225-7997 requires contractors to report alleged 

offenses under the UCMJ and MEJA including sexual assault, to the appropriate 

investigative authorities. Further, the clause requires contractors to provide all contractor 

employees with information on how and where to report alleged crimes and resources for 

victim and witness protection and assistance. 


FAR Clause 52.203-13, “Contractor Code of Business Ethics and Conduct,” 

December 2008, requires contractors to report offenses of certain nonviolent crimes such 

as fraud, conflict of interest, or bribery to the agency OIG in a timely manner. However, 

the scope of crimes that the clause requires to be reported does not include violent crimes 

such as sexual assault. 


FAR Clause 52.203-14, “Display of Hotline Poster(s),” December 2007, requires 

contractors who performed work in the United States to establish a reporting mechanism



                                             36


for ethical violations either by displaying fraud hotline posters at work sites or as part of
the business ethics and conduct awareness program.

Joint Contracting Command – Iraq/Afghanistan clause 952.225-0004, “Compliance with
Laws and Regulations,” March 2009, requires all contractors, with place of performance
in Iraq or Afghanistan, to notify the Military law enforcement and the contracting officer
immediately if they suspect an employee has committed an offense such as sexual assault
or sexual harassment while in Iraq and Afghanistan. However, this clause only applies to
contracts that support the CENTCOM AOR in Iraq and Afghanistan and does not apply
to contracts that support the operations of other combatant commands.




                                              37


                                                                                                                          Table C-1. Provisional Language Included in Contracts


                                                                                                       Ensured Personnel Was                                                                                                                                                                    Contractual
                                                                              Compliance With All      Aware That They Are                          Maintained a Working                                                             Requirement to               Designated Deployment         Repurcussions for
                                                                              Applicable U.S. and      Subject To the Criminal     Compliance       Environment Absent of         Requirement to       Requirement to Include        Report Violent               Center for Fulfillment of     Contractors When
                                                                              Host Country Laws        Jurisdiction of the MEJA    With EEO         Harassment for All           Include Code of       a Reporting Mechanism         Complaints From              DOD Deployment Training       Contract Employees
                                                                                                 1                   2                    3                                  4                     5                            6                7                             8                                        9
       Customer                 Contractor      Contract Number               and Regulations          and/or UCMJ.                Laws             Construction Contracts       Business Ethics       for Ethical Violations        Employees                    Requirements                  Commit Violent Crimes
       Army (4)                 AECOM           W52P1J-05-D-0004                      Yes                       Yes                       Yes                    *                          *                           *                            *                Yes (Fort Benning)                 Yes
                                                                                                                                                             N/A                        N/A                        N/A                        N/A
                                ITT             W52P1J-05-D-0003                       Yes                       Yes                      Yes                    *                          *                           *                            *                        No                         Yes
                                                                                                                                                             N/A                        N/A                        N/A                        N/A
                                ITT             W91RUS-06-C-0002                       Yes                            *                   Yes                    *                          *                           *                            *                  Yes (Fort Bliss)                 Yes
                                                                                                                 N/A                                         N/A                        N/A                        N/A                        N/A
                                KBR             DAAA09-02-D-0007                       Yes                       Yes                      Yes                Yes                            *                           *                            *                    Yes (KBR)                      Yes
                                                                                                                                                                                        N/A                        N/A                        N/A
       Army Corps of            Tetra Tech      W912DY-04-D-0011                             *                   Yes                      Yes                    *                          *                           *                            *                  Yes (Fort Bliss)                     *
                                                                                       N/A                                                                   N/A                        N/A                        N/A                        N/A                                                        N/A
       Engineers (6)            Fluor           DACA78-03-D-0005                       N/A
                                                                                             *
                                                                                                                 N/A
                                                                                                                      *                   Yes                No                         N/A
                                                                                                                                                                                            *
                                                                                                                                                                                                                   N/A
                                                                                                                                                                                                                        *
                                                                                                                                                                                                                                              N/A
                                                                                                                                                                                                                                                     *
                                                                                                                                                                                                                                                                             N/A
                                                                                                                                                                                                                                                                                   *
                                                                                                                                                                                                                                                                                                         N/A
                                                                                                                                                                                                                                                                                                             *

                                Fluor           W912ER-04-D-0004                             *                        *                   Yes                 Yes                           *                           *                            *                             *                         *
                                                                                       N/A                       N/A                                                                    N/A                        N/A                        N/A                            N/A                         N/A
                                KBR             W912ER-04-D-0005                             *                        *                   Yes                 Yes                           *                           *                            *                             *                         *
                                                                                       N/A                       N/A                                                                    N/A                        N/A                        N/A                            N/A                         N/A
                                Parsons         W912ER-05-C-0016                       No                             *                   No                     *                          *                           *                            *                  Yes (Fort Bliss)                 No
                                                                                                                 N/A                                         N/A                        N/A                        N/A                        N/A
                                Parsons         W912DY-04-D-0005                             *                   Yes                      Yes                    *                          *                           *                            *                Yes (Fort Benning)                     *
                                                                                       N/A                                                                   N/A                        N/A                        N/A                        N/A                                                        N/A

       Air Force (9)            Tetra Tech      FA8903-04-D-8677                       Yes                            *                   Yes                 Yes                           *                           *                            *                        No                         Yes
                                                                                                                 N/A                                                                    N/A                        N/A                        N/A
                                ECC             FA8903-04-D-8672                       Yes                            *                   Yes                 Yes                           *                           *                            *                        No                         Yes
                                                                                                                 N/A                                                                    N/A                        N/A                        N/A
                                ECC             FA8903-06-D-8511                       Yes                            *                   Yes                 Yes                           *                           *                            *                        No                         Yes
38 





                                                                                                                 N/A                                                                    N/A                        N/A                        N/A
                                Fluor           FA8903-06-D8512                        Yes                       Yes                      Yes                 Yes                           *                           *                            *                        No                         Yes
                                                                                                                                                                                        N/A                        N/A                        N/A
                                ITSI            FA8903-04-D-8689                       Yes                            *                   Yes                 Yes                           *                           *                            *                        No                         Yes
                                                                                                                 N/A                                                                    N/A                        N/A                        N/A
                                ITSI            FA8903-06-D-8513                       Yes                       Yes                      Yes                 Yes                           *                           *                            *                        No                         Yes
                                                                                                                                                                                        N/A                        N/A                        N/A
                                L-3             F34601-97-D-0425                             *                        *                   Yes                    *                          *                           *                            *                       N/A*                            *
                                                                                       N/A                       N/A                                         N/A                        N/A                        N/A                        N/A                                                        N/A
                                RMS             F08637-02-D-6999                             *                        *                   Yes                Yes                            *                           *                            *                       N/A*                            *
                                                                                       N/A                       N/A                                                                    N/A                        N/A                        N/A                                                        N/A
                                RMS             FA3002-06-D-0006                       Yes                       Yes                      Yes                 Yes                           *                           *                            *                                     **            Yes
                                                                                                                                                                                        N/A                        N/A                        N/A                    Yes (Tyndall AFB )

       Navy (2)                 KBR             N62470-04-D-4017                             *                        *                   Yes                 Yes                           *                           *                            *                             *                         *
                                                                                       N/A                       N/A                                                                    N/A                        N/A                        N/A                            N/A                         N/A
                                RMS             N65236-06-D-6864                       Yes                       Yes                      Yes                    *                          *                           *                            *                Yes (Fort Benning)                 Yes
                                                                                                                                                             N/A                        N/A                        N/A                        N/A

       JCC (1)                  L-3             W912CM-05-D-0011                             *                        *                   Yes                    *                          *                           *                            *                  Yes (Fort Bliss)                     *
                                                                                       N/A                       N/A                                         N/A                        N/A                        N/A                        N/A                                                        N/A


       Contract Provision Source:                                                                                                                                                                      Acronyms:
       1
        DFARS 252.225-7040 dated June 2005.                                                                                                                                                            AFB       Air Force Base
       2
           DFARS 252.225-7040 dated June 2006 or the Secretary of Defense memorandum dated March 10, 2008 or Title 10 Section 802 amended October 17, 2006.                                            ECC            Environmental Chemical Corporation
       3
           FAR 52.222-26 dated February 1999.                                                                                                                                                          ITSI          Innovative Technical Solutions
       4
           FAR 52.222-27 dated February 1999.                                                                                                                                                          KBR            Kellogg Brown & Root Services Incorporated
       5
           FAR 52.203-13 dated December 2007 which was revised in December 2008 to delete the exemption for contractors performing work outside the U.S.                                               MEJA          Military Extraterritorial Jurisdiction Act
       6
           FAR 52.203-13 dated December 2008 or FAR 52.203-14 dated December 2007.                                                                                                                     RMS           Readiness Management Support
       7
           JCC-I/A 952.225-0004 dated March 2009 or National Defense Authorization Act of 2009 dated May 12, 2008.                                                                                     Note:
       8                                                                                                                                                                                               *
           DOD Instruction 3020.41 dated October 2005 or DFARS 252.225-7040 dated June 2005.                                                                                                             "N/A" Identifies the contracts that were not required to include the provisional language
       9                                                                                                                                                                                               **
           DFARS 252.225-7040 dated June 2005 or FAR 9.406-5 dated October 1995.                                                                                                                            Tyndall AFB is not approved as an official Conus Replacement Center.
Appendix D. Investigative Policy and
Oversight Response to Congressional
Questions

                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON . VIRGINIA 22202-4704                  DEC 2 2 WJ



        MEMORANDUM FOR DEPUTY INSI'ECTOR GENERAL FOR AUDIT

        SUBJECT:        Evaluation of Do[) Sexual AssauiL Response In Openllioos Enduring and
                        Iraqi Frt-edom Areas ofOperatioo (Report No. IP02009EOO2).

               'Ibis memonlOdum provides our input 10 your audit of Efforts to Prevent S(.·xua!
        AssaulllHamssmeotlo\"olving DoD Conlmclors During Contingency Opcr.. tions. Project
        Number D2008-[)()()()CE-0221.()()(). Specifically. it provides our responses to
        eongressiooal queslions in an April 21. 2()()8. request asking us 10 expand the seope of
        our evaluation to detcnnine "hat cOlllrols DoD has established for eOlllraelOr5 in the
        follo"ing areas: prevention and assislance. and eooiraelOr accoulllabi[ity. The following
        infonnation is provided:

                Congrrssional Qurstion 2. "llas the DoD provided sueh employt-es - American
        cilizens "ith infonnalion regarding their rights as erime victims and availab[e resources
        for dealing wilh the aflcnnath ofvietimi;r;l1ion? What is thc DoD doing to assist
        Americans living and working in !roq thai are \'ietims of crime?"

                Responsc 2. 'Ille Victim and Witness i'rott'Ction Act of 1982. 42 U.S.c.. § I 0607.
            forth specific prot~ctions aod serviccs for victims and witnesses of crime. Tht·
       SI.'IS
       stotute requires the head of each deportment or agency engaged in detecting.
       investigating. or prosecuting crime to designate by n3ll1C and omcc tit[e Ihc person(s)
       responsible for identifying victims and perfonning required services at cach stage of a
       criminal case. The statute also requires responsible officials. at the earliest opportunity
       possible wilhout interfering with an investigation. to infomJ victims aboullh(>ir rights 10
       services. and to provide the name. til[(>. business address. and tel(>phone number where
       the victims may «:quest the services. Among OIher things. the responsible officials are
       required to ( I) infonn victim~ about public and prival(> programs thai are available to
       provide counseling. lreatment. Ilnd other support. (2 ) arrange for a victim to rc<:ein:
       reasonab[e prolt"<:tion from a suspect(>d offender (or person acting in concert with or at
       th~ beh(>st of the suspect(>d oficnder). and (3) infonn victims about specific services
       available to them during invl.'stigation and prosecution: court proce<.:dings: and afil.'r lria!.

              DoD imp[emented theSl.' requirements in the Victim and Witness Assistance
       Program (VW AI'). DoD Directive 1030. [. "Victim and Witness Assistance."
       November 23. 199~. and DoD Instruction (0001) 1030.2. "Victim and Witness
       Assistance I' roc<.'dures." I)..:eember 23, 1994. The implementing policies:
                   •   require each DoD component to designate a "Component Responsible
                       Onida]"' (CRO) for VWAI' coordination. imp[(>mentalion and
                       management:




                                                 39


Appendix D. Investigative Policy and
Oversight Response to Congressional
Questions (cont’d)


                    •   require each [)(}]) component to designate a Local Responsible Ollieial
                        (LRO) to ensure installation-level systems for (I) providing infonmuion
                        on available benefits and services. and (2 ) assisting victims in obtaining
                        the benefits and services;
                    •   pennit inst;lUation commanders 10 delegate. in writing. LRO dulies and
                        responsibilities to the StafT Judge Advocate;
                    •   require a Victim and Witness Assistance Council. to the extent practicable.
                        ;It each significant military installation. to ensure;ln interdisciplinmy
                        approach to providing services to victims and wimesses;
                   •    require each [)(}]) component to establish oversigh t procedures to ensure
                        an integrated suppon system capable of providing required services; and
                   •    require initial notifications to victims and wimesses on Depanm('nt of
                        Ddense (DD) Fonn 2701. "Initial Infonnmion for Victims and Witnes.>cs
                        of a Crime" - law enforeem('nt OmeeTS (police ollicers and criminal
                        investigators) arc gellt.'mlly responsible for initial victim and witness
                        notifications.

                 To funher assist crime victims. the Military Criminal Invcstig;llivc Offices h;lve
        established procedures whereby criminal investigators issue ])0 FornI 2701. "Initial
        Infomlation for Victims and Wimesses of a Crime:' to all victims. This foml advises
        them of their rights as a victim. explains thl' Victim Witness Assist;lnce Progr..lm to them.
        provides relevant infonnation. such as the name of the investigator; and persons to
        contllct for infonnation on other assistance available. prosecution. compensation for
        ml'(]ical and other expenses. and conlact teleph011e Ilumbers.

               Congressional Ques tion 5. " What is the DoD pvlicy for dealing with alleged
        offendersT'

                R<,s po nsc 5. DoD policy with respect to militury offcndcrs. whcthcr the alleged
       criminal acts are committed stateside Or abro;ld. is gO\'cmed by longstanding regulations
       and thc Uniformed Code of Military Justicc (UCMJ). In"estigations of civilian offenders
       are somewhat more involved. as they must be eoordinmed with. or rcfl'rTl.'d to. non-[){}D
       investigative o rganizations and to civilian prosecutors either in the U.S, or in foreign
       jurisdictions.

                Since the Military Ex!mterrilorial Jurisdiction Act (MEJA) was p<!ssed in 2000.
       eivili;lns accompanying U.S. forces in foreign countrics may be prosecuted in U.S.
       courts. Undcr MEJA. fcdeml jurisdiclion exists over f('lony ofTenses committed outside
       the U.S. by civilian personnel of any f(.,(]eml agency or provisional authority whose
       employment relates to supponing the DoD mission. Implcmeming guidance under this
       Act is included in DoD Instruction 5525.11. "Criminal Jurisdiction Over Civilians
       Employed by or Accompanying the Anned Forees Outside the Unil(.'(] States. Cenai n
       Sen.·ice Members. and Fonner Sen.·ice Members." and military department regulations.




                                               40


Appendix D. Investigative Policy and
Oversight Response to Congressional
Questions (cont’d)


                   Also, on March 10,2008. the Sl'i:retary of DC'fense published policy giving
        commanders UCMJ jurisdiction over persons accompanying U.s. ann~'d rOTces in thc
        field at urnes of dl~larcd War or cunllngency Upcr<ltlons.' Commanders have UCMJ
        authority to dis-1ml. apprehcnd. and detain DoD civilians suspectcd of violating of U.S.
        f~'dcr.. l laws, and to conduct pretrial proccss and trial procedures IIndcr the UCMJ.
        Commanders may also usc administrativc remedies. including discipline.

        C ongress ional Questi on 6. "What safety mcchanisms are put in plae;., aftcr a r"port of
        sexual assault to "nsure thc safety of thc victim and othcr potcntial victims? Are the
        alleged ol1"nd ... rs removcd or suspended from their position'?""

       Res ponse 6. Local commandl'rs are responsible for taking thc necessary actions to
       l'nSIiTC victim sar,,!y. DoD Instruction 6495.02. EnclosuTC 5. Attachment E5.A I. "lbc
       Commander's Sexual Assault Checklist." provides guidance to assist commanders once a
       sexual asSllult is reponcd. The first itcm on the checklist. diTCi:ts the commander to
       ensure thc safcty ofthc complainalll: determine if the accusc'd is still nearby. and
       detemlinc if the complainanl neL'ds or d;.,sin-s prot"etion. Th" uS<' ofth" checklist has the
       primary objL'i:tivc of "nsuring a balance belween the complainant's right 10 tcel secure.
       !lnd the alleged offend"r's right 10 due pr()(:css. A~tion takcn regarding (:ompluin,m\
       safcty and offender status is lett to commanders' discretion based on each individual
       sc.~ual assault complaint.




                                       ~
                                               -\?o.-J.-.L
                                              ?a-mes L. Pavlik
                                             stant Inspector GeneraL
                                   for Investigative Policy and Oversight




       , Memorandum dated March 10,2008. Subjl'<:" UCMJ Jurisdiclion Over DoD Civilian Emplo)'c'Cs. DoD
       C"fli"'CIOr Personnel. and Other Persons !>crvin~ With or Accompanying the Armed F"",cs Ovcrsca~
       During Declared War and in Conlingcncy Operations.




                                                 41

Appendix E. Definitions of Other Sexual
Offenses Under the Uniform Code of Military
Justice
In addition to the definition of sexual assault discussed in Finding A, the Uniform Code
of Military Justice (UCMJ), section 920, title 10, United States Code (10 U.S.C. §920
[2008]), article 120, “Rape, sexual assault, and other sexual misconduct,” defines rape,
aggravated sexual contact, abusive sexual contact, and wrongful sexual contact as other
felony offenses of a sexual nature that are punishable by court-martial.

       (a)		 Rape. Any person subject to this chapter [10 USCS §§ 801 et seq,] who causes another
             person of any age to engage in a sexual act by—
             (1) using force against that other person;
             (2) causing grievous bodily harm to any person:
             (3) threatening or placing that other person in fear that any person will be subjected to death
                   grievous bodily harm, or kidnaping [sic];
             (4)		 rendering another person unconscious; or
             (5) administering to another person by force or threat of force, or without the knowledge or
                   permission of that person, a drug, intoxicant, or other similar substance and thereby
                   substantially impairs the ability of that other person to appraise or control conduct;
       is guilty of rape and shall be punished as a court-martial may direct.

                         .        .         .        .        .         .        .

       (e) Aggravated sexual contact. Any person subject to this chapter [10 USCS §§ 801 et seq,] who
       engages in or causes sexual contact with or by another person, if to do so would violate subsection
       (a) (rape) had the sexual contact been a sexual act, is guilty of aggravated sexual contact and shall
       be punished as a court-martial may direct.

                         .        .         .        .        .         .        .

       (h) Abusive sexual contact. Any person subject to this chapter [10 USCS §§ 801 et seq,] who
       engages in our causes sexual contact with or by another person, if to do so would violate
       subsection (c) (aggravated sexual assault) had the sexual contact been a sexual act, is guilty of
       abusive sexual contact and shall be punished as a court-martial may direct.

                         .        .         .        .        .         .        .

       (m) Wrongful sexual contact. Any person subject to this chapter [10 USCS §§ 801 et seq,] who,
       without legal justification or lawful authorization, engages in sexual contact with another person
       without that other person’s permission is guilty of wrongful sexual contact and shall be punished
       as a court-martial may direct.




                                                    42


Appendix F. Operations Enduring Freedom
and Iraqi Freedom Command Structure
The U.S. Central Command (CENTCOM) is a unified combatant command with a
mission that “promotes cooperation among nations, responds to crises, and deters or
defeats state and nonstate aggression, and supports development and, when necessary
reconstruction in order to establish the conditions for regional security, stability, and
prosperity.” CENTCOM carries out its mission throughout its area of responsibility
(AOR) of 20 countries across the East Africa, Middle East, and Southwest Asia regions,
which include Afghanistan and Iraq. As a result of the joint resolution approved in
Public Law 107-40, “Authorization for the Use of Military Force,” and Public
Law 107-243, “Authorization for Use of Military Force Against Iraq Resolution of
2002,” CENTCOM initiated Operations Enduring Freedom (OEF) and Iraqi Freedom
(OIF), respectively. See Figure E-1 for an illustration of the command structure for OEF
and OIF areas of operation.

Figure E-1. Operations Enduring Freedom and Iraqi Freedom Command
Structure.
                                                Secretary of Defense (SecDef)




      Under Secretary of Defense for Acquisition,                                               Joint Chiefs of Staff (JCS)
       Technology, and Logistics [USD(AT&L)]                                    JCS transmits communication between SecDef and
                                                                                CENTCOM and advises the SecDef on Military courses of
  Defense Procurement and Acquisition Policy (DPAP)                             action, but does not exercise authority over CENTCOM.
 DPAP is responsible for all acquisition and procurement
 policy matters (Federal Acquisition Regulation and
 Defense Federal Acquisition Regulation Supplement)
 within DOD and serves as the principal adviser to the
 Under Secretary of Defense for Acquisition, Logistics,
 and Technology.


                                       U.S. Central Command (CENTCOM)
                         CENTCOM oversee combined Military operations in AOR in
                         Afghanistan and Iraq and develop AOR theater entry requirements for
                         DOD personnel entering the AOR.


              Multi-National Force- Iraq (MNF-I)                Combined Joint Task Force – 82
              MNF-I executes missions for OIF                             (CJTF-82)
                                                              CJTF-82 execute missions for OEF.



     Joint Contracting Command –Iraq/Afghanistan (JCC-I/A)
   JCC-I/A, established by CENTCOM as a subordinate command
   of MNF-I, provides unified contracting support and contract
   oversight to OEF/IF Areas of Operation.




                                                             43


Under Secretary of Defense for Acquisition, Technology,
and Logistics Comments



                                       FOR OFFIC iAl USE ON LY
                                THE UNDER SECRETARY OF DEFENSE
                                          3010 DEFENSE PENTAGON
                                         WASHINGTON, DC 20301-3010



                                                                                   FEB - 2   jlJI)
    TECHNOLOGY
    AND LOGISTICS


          MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL AND DIRECTOR,
                           DEFENSE FINANCIAL AUDITING SERVICE, DoDlG

         THROUGH: DIRECTOR, ACQUISIT ION RESOURCES AND ANALYSIS

          SUBJECT: Response to DoDlG Draft Report on Efforts to Prevent Sexual
                      AssaultIHarassment In vo lving DOD Contractors During Contingency
                      Operations (Project No. D2008-DOOOCE-0221.000)

               As requested, I am providing responses to the general contcnt and
          recommendations contained in the subject report.

          Recommendation A Ia:
          We recommend that the Under Secretary of Defense for Acquisition, Technology, and
          Logistics (USD(A T &L» develop requirements in all DOD contracts supporting
          contingency operations that ensure contractor employees accompanying U.S. Anned
          Forces are aware of the Unifonn Code of Military Justice definition of sexual assault.

         Response:
         Concur. We agree that increasing the visibility of sex offenses punishable under the
          Uniform Code of Military Justice (UCMJ) is appropriate. Additionally, we be lieve that
          increasing the visibility and awareness of the Sexual Assault Prevention and Response
          Program and the definition of sexual assault applicable to the Program, as defined in
          DoDl 6495.02, is appropriate as well.

         Recommendation Alb:
         We recommend that the Under Secretary of Defense for Acquisition, Technology. and
         Logistics require DOD contractor employees supporting all combatant commands
         contingency operations, including the U.S. Central Command area of responsibility, to
         report sexual assault cases to Military law enforcement.

         Response:
         Concur. USD(AT&L) will revise the DFARS to require the reporting to law enforcement
         ofUCMJ offenses committed by contractors during contingency operations. By doing
          so, the associated SAPR requirements for addressing a sexual assault otTense, as defined
          in DODI 6495.02, will be included in that reporting requirement and wi ll be integrated
          into all DOD contracts supporting contingency operations.


                                        FOR OFFICIAL USE ONL Y




                                                                44
                                FOR OFFICIAL USE ONLY


Findings on Internal Control Weaknesses in Contract Administration:

Weakness: Lack of Provisions in DOD contracts to eDsure contractors are aware of
the UCMJ definition of sexual assault.

We do not agree that AT&L failed to provide contractual coverage on awareness and
compliance with UCMJ jurisdiction for offenses committed under the UCMJ. As
prescribed at Defense Federal Acquisition Regulation Supplement (DFARS) 225.7402­
5(a), DFARS clause 252.225-7040, Contractor Personnel Authorized to Accompany U.S.
Armed Forces Outside the United States, requires that the contractor shall en ure its
personnel authorized to accompany the U.S. Armed Forces deployed outside of the
United States are familiar with and comply with U.S. laws, regulations, directives,
instructions, policies and procedures. Further, the clause requires the contractor to notilY
all personnel, who are not a host country national or ordinary resid.ent of the country, that
in time of declared war or a contingency operation, these personnel are subject to the
jurisdiction of the UCMJ. Based on this language, U.S. contractors and their personnel
accompanying U.S. forces are already held responsible for knowing they are subject to
the UCMJ.

USD(AT&L) will revise the DFARS, as necessary, to ensure all DOD contracts
supporting contingency operations contain language to ensure that contractor employees
accompanying U.S . Armed Forces are fully aware of UCMJ jurisdiction and the
definition of sexual assault contained in the SAPR Program and DODI 6495.02.

Weakness: Lack of Provisions in DOD contracts to ensure contractors report sexual
assault complaints to Military law enforcement during contingency operations.

We agree that that the lack ofa DFARS requirement for contractors to report sexual
assault complaints to Military Law enforcement during contingency operations
constitutes an internal control deficiency within contract administration. As discussed in
our response to A.I.b above, USD(AT&L) will include in the DFARS update a
requirement for contractors to report all UCMJ offenses to appropriate law enforcement
officials, to include sexual assault offenses. For Iraq and Afghanistan, Class Deviation
2009-00014, "Additional Contractor Req uirements and Responsibilities Relating to
Alleged Crimes by or Against Contractor Personnel in Iraq and Afghanistan" requires
contractors to report to the appropriate investigative authorities any alleged offenses
under the UCMJ or the Military Extraterritorial Jurisdiction Act, which would include
sexual assault offenses.

Comment:
The distinct awareness requirement regarding UCMJ jurisdiction and the SAPR Program
definition of applicable sexual assault offenses, as defined in DODI 6495.02, should be
made clear throughout the draft report in order to eliminate confusion between the two


                               FOR OFFICIAL USE ONLY




                                                        45
                                FOR OFFICIAL USE ONLY


and conflicting references (as further explained in the proposed response to
Recommendation A 1b).

      Please contactl                                                                       if additional
infonnation is required or questions arise.




                                              ~~.          fi-eJ.ns-e-p-r:::oc'-ur;e"ment
                                                and Acquisition Policy




                               FOR OFFICIAL USE ONLY




                                                      46
Under Secretary of Defense for Personnel and Readiness
Comments




                                     UNDER SECRETARY OF DEFENSE
                                           4000 DEFENSE PENTAGON
                                          WASHINGTON , D . C . 2030'·4000
                                                               2030',4000




   P5"R80NNI L "NO
   PIiR80NNItL
     RIADIN ISS
     RUDINISS




          MEMORANDUM FOR INSPECTOR OENERAL OF TIlE DEPARTMENT OF
                           DEFENSE

          SUBJECT:: 10 Report, Project No. D2008-DOOOCE-0221.000,
          SUBJECT                           D2008-DOOOCE-0221 .000, "Efforts to Prevent
                    Sexual AssRu
                             ssAultIHara
                                  ltlHarassme
                                         ssment
                                              nt Involving DoD
                                                           000 Contractors During Contingency
                    Operations                     6, 2009
                    Operations,," dated November 6,2009

                  Thiss is
                  Thi   Is the Department of Defen
                                             Defense
                                                   se (1)01)
                                                      (000) re
                                                             ressponse to the 10 Report, Project No.

         D2008-DOOOCE
          2008-DOOOCE--022
                       0221.000
                           1.000,, "Eff
                                   "Efforts
                                       orts to Prevent Sexual AssaultIHarassment
                                                              AssaultlHarassment Involving

         DoD Contractor
             Contractorss during Contingency Operations
                                             Operations,"
                                                        ," dated November 6, 2009. It is

         subm
         submitted
              itted for your inf
                             information.
                                ormation.



                                                      {It\ ~~,e tA~
                                                        Clifford L. Stanley


         Attachment s:
         Attachments:
         As stated
            stnted




                                                     o
                                                                 47
                                                                                                Final Report 

                                                                                                 Reference






             IG DRAFT REPORT, PROJECT NO. D2008-DOOOCE-0221.000,

  "EFFFORTS TO PREVENT SEXUAL ASSA
  "E                          ASSAUL
                                   ULTIHARASSMENT INVOLVING DoD
                CONTRACTORS DURING CONTINGENCY OPERAnONS,"
                       DATED NOVEMBER 6, 2009


   THE UNDER SECRETARY
             SECRETAR Y OF DEFENSE FOR PERSONNEL AND READINESS'
                            TIlE 10 RECOMMENDAnONS
               RESPONSE TO THE



                       RESPONSE TO RF.COMMENDATIONS
                                   RF:COMMENPATIONS



RECOMMENDATION A.2.a.I:     A.2.a.l:
A.2. We recommend thai
A,2.                  that the Under Secretary of Defense for Personnel and Readiness:
      a. MOdify
         Modify 000
                  DoD Directive 6495.01 , "Sexual Assault Prevention and Response
                                                                             Rcsponse
      (SAPR) Program," and 0DoD   00 Instruction 6495.02, "Sexual Assault Prevention and
      Response Program Procedures," to:  to:
            1I . Establish prevention, awareness, and reporting requirements and
            procedures specifically for DoD contractors who are U.S U.S.. citizens and
            accompany the U.S. Armed Forces in contingency operations; and

USD(P&R)
USD(P&Rl RESPONSE:
COllcur
Concur and corul1lellt:
              corulllent: USD(P&R) agrees with Ihis this recommendation and will direct
SAPRO to expand the current policy to encompass 000   DoD contractors, who are U.S.
citizens and accompany Ihe
                         the U.S . Armed Forccs
                                           Forces in contingency operations OCONUS,
thus providing them two reporting options (Restricled
                                             (Restricted and Unrestricted), and emergent
medical services to the extent authorized by DoD! 3020.40. It is further recommended
that DEPS
     DEPSEC   DEF "mend
           ECDEF    amend Ihc  detinitlon for resuscitative care to include sexual assault.
                           the detinition
The USD(P&R) will direct SAPRO to, in coordination with AT&L, provide guidance on
core training requirements for prevention and awareness training for DoD contractors,
who are U.S. citizens lind
                      lIud accompany the U.S. Anned
                                                 Armed Forces in contingency operations
OCONUS.



               A.:Z.a.2:
RECOMMENDATION A.2.a.2:
A.2. We recol1lmend lhat
A.2.                Ihat Ihe
                         the Under Secretory
                                   Secretary of
                                             ofDcfcnse
                                                Defense for Personnel alld Readiness:         Revised 





                                                      48
       a. ModifY DoD Directive 6495.01,
                                 6495.0r, "Sexual Assault Prevention and Response
       (SAPR) Program," and DoD Instruction 6495.02, "Sexual Assault Prevention and
       Response Program Procedures," to:
             2. Direct the Military Services to require contractors to track and annually
             report alleged sexu
                            sexuaal assault cases involving DoD contractors for
             incorporation into the annual DoD Sexual Assault Report to Congress.

lJSD(P&R) RESPONSE:
Non·Concur: 11le TIle requirement to have contractors report alleged sexual assault crimes
for incorporation into the annual DoD Sexual Assault Report to Congress could
undermine the reporting options available under the Sexual Assault Prevention and
Response Program once the SAPR program is extended to contractors in contingency
Rcsponse
operations. To the extent there is a requirement to have contractors report alleged sexual
assaults, SUell repOliing
                rep0l1ing should be made through channels outside the Sexual Assault
Prevention and Response
                  Respc)Ose Program and such reports should
                                                       should'' not be included in the SAPR
annual report. Additionally
                 Additionally,, USD(P&R) has concerns about the reliability of the data that
would be provided by multiple
                         mUltiple contract organizations for inclusion in the annual report to
Congress.. SAPRO should not be held responsible or accountable for data provided by
Congress
contractors because it has no way of independently validating the data data.. There are also
concerns of potential duplication of data collection and reporting, with sexual assaults
reported to military databases through the military treatment facilities and military
criminal investigative offices. When the Department, consistent with the 1G
recommendation, extends the SAPR policy to contractors, the same SAPR reporting
options will be made available to the contractors, to the extent feasible.
 Additionally,, the Military Services would be able to track and annually report sexual
 Additionally
assault information
        infonnation collected pursuant to SAPR policy. Finally, the Sexual Assault
                                                development,, will contain data specific to
Incident Database (DSAID), currently under development
sexual assaults reported by victims of sexual assault, to include contractor employees,
both CONUS and OCONUS, who use the existing SAPR reporting structure    structure.. This
process would prov
                 provide
                     ide verifiable data obtained through existing DoD sexual as   asssault
prevention and response mechanisms for inclusion in the annual report.

RECOMMENDATION A.2.b.:     A.l.b.:
A.2 . We recommend that the Under Secretary of Defense for Personnel and Readiness:
       b. Establish guidance to ensure that combatant commanders require mandatory
       training on sexual assault prevention, reporting,
                                              reporting. and
                                                         and'' response for contractor
       employees prior to deployment to contingency operations.

USD(P&R) RESPONSE:
         Rnd Comment: This training will only target DoD contractors, who are U.S. '
Concur and
citizens and accompany the U.S  .S.. Armed
                                     Amled Forces in contingency operations OCONUS,
thus paralleling the class of individuals
                              Individuals for whom the SAPR Policy is expanded (per
Recommendation A.2.a.I). The USD(P&R) will direct SAPRO to provide guidance on




                                                       49
COre tra
COre training
         ining requirements
               requircmcllls for pl"Cvention
                                  prevention and awareness training to include reporting
options for sexlIa
             sexuallllussaults and services available to sexual assault
                                                                assau lt victims.




                                                      50
Department of the Army Comments






                                     DEPARMENT OF THE ARMY
                                    OFFICE OF THE ASSISTANT SECRETAAY
                                     MANPOWER AND RESERVE AFFAIRS
                                           111 ARMY PENTAGON
                                        WASHINGTON, DC 20310-0111


                                                                            FEB 0 2 2010
       SAMR-DL

       MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL


       SUBJECT: Efforts to Prevent Sexual AssaulUHarassment Involving DoD Contractors
       During Contingency Operations (Project No. D2006-DOOOce-0221.000)

       1. Reference draft report and memorandum dated November 6, 2009, subject as
       above.

       2. I found the DoDIG Draft Report infonmative and thank the IG team for its diligence in
       addressing th is challenging issue. The Army is committed to eliminating incidents of
       sexual assault through its comprehensive policy that centers on awareness and
       prevention, training and education, victim advocacy, response, reporting, and
       accountability.

       3. I am providing a consolidated response incorporating comments of the Army
       Secretariat. The Army concurs with the proposed recommendations subject to
       incorporation of the attached comments.

       4.  Please feel free to contact my office should you have any questions. W e look
       forward to the release of your report.




                                                  ~tf: -+~-
       Encl                                             Thomas R. Lamont
                                                        Assistant Secretary of the Anmy
                                                         (Manpower and Reserve Affairs)




                                                               51
                                                                                                           Final Report 

                                                                                                            Reference






                              ARMY COMMENTS
        EFFORTS TO PREVENT SEXUAL ASSAUL T/HARASSMENT INVOLVING DOD
               CONTRACTORS DURING CONTINGENCY OPERATIONS


Issue                              Effect                            Resolution

Recommendation A 1" The            It is estimated that another 10   Recommend the topic of
draft report notes that there      criminal investigation agents     funding of hiring of increased
are approximately as many          would be needed to handle         manpower to offset the
contractors in theoter as there    the increased workload .          increased workload be
are Soldiers. If the DoDIG         There could be corresponding      addressed within the report.
recommendations are                increased workload by certain
adopted, the number of sexual      other categories of personnel
assaults reported to C10 for       involved in sexual assault
investigation could double in      prevention and response
theater, assuming tl1e rate of     (such as medical personnel to
sexual assaults among              conduct evidence-collecting
contractors is about the same      examinations, etc.).
as that be:ng experience
among Soldiers.

Recommendation A.2. 1: The         1. It is contract employees       Recommend clarifying tl1at the
recommendation provides for        who are U.S. citizens, not        procedures apply to DOD
establishment of prevention,       contractors                       contract employees.
awareness , and reporting
requirements for ~D OD             2. Contract employees who       Recommend cla rifying what
contracto r:;~ who are U.S         are not U.S. citizens, but who  category of contrad
citizens.                          alre aliso not host nation      employees we are targeting.
                                   citizens are excluded from this This provision should not
                                   requirement.                    apply only to U.S. citizens.

Recommendation A.3:                Neither the DFARS clause nor      1. Propose the
Recommendation to require          0001 3020.41 requires a           recommendation be re-stated         Revised 

all Army contracting officers to   specific deployment location      to require all contracts to
designate a specific               to be identified in contracts.    identify a specific pre-
deployment location in all         Oft~n , log istics services       deployment training location.
contracts awarded with             contracts are awarded prtor to    2. For contracts awarded
DFARS Clause 252.225-7040.         military operations, like the     after commencement of
                                   Logistics Civil Augmentation      military operations, when a
                                   Program contracts for             contractor deployment
                                   example, with no known place      processing center has been
                                   of performance. Until specific    established , as a true for
                                   task orders or delivery orders    Operations Enduring and Iraqi
                                   are awarded, place of             Freedom, the Army conOJrs
                                   performance will be unknown,      that a specific location for pre-
                                   and even then may still be        deployment training must be
                                   unclear                           identified.
                                   The policy and regulation         3. For contracts awarded in
                                   cited by the DoDIG require a      advance of military
                                   specific location for pre-        operations, the Army
                                   deployment training, not          recommends thaI the specific
                                   country of performance. The       location for pre-deployment




                                                             52
                                                                                                           Final Report 

                                                                                                            Reference






                             ARMY COMMENTS
       EFFORTS TO PREVENT SEXUAL ASSAULT/HARASSMENT INVOLVING DOD
              CONTRACTORS DURING CONTINGENCY OPERATIONS


                                   Sychronized Pre-deployment         training be identified either in
                                   and Operational Tracker            the task order or notice to
                                   (SPOT) already provide the         proceed.
                                   level of contractor
                                   accountability required by
                                   00013020.41 if properly
                                   used. Additionally, if the place
                                   of performance is a single
                                   country, the Federal
                                   Procurement Data System -
                                   Next Generation already
                                   records the place of
                                   performance .

Recommendation A 2.a.2:            If we req Uire reporting to        Recommend thai statistics be       Revised 

Recommends directing the           military law enforcement,          compiled from Military law
Military Services to require       military law enforcement will      enforcement officials who
contractors to track and           have the best statistics.          have the most accurate
annually report alleged sexual     Contractor employees mayor         statistics. This also reduces
assault cases involving DoD        may not make a report to their     cost to the Govemment
contractors for incorporation in   employer.                          because we are not imposing
the report to Congress             A related problem is that if       a requirement on the
                                   reporting comes from both          contractor for which we will be
                                   sources (milrrary law              billed.
                                   enforcement and contractors) ,
                                   there may be doub!e counting       If contractor reporting remains
                                                                      a recommendation;
                                                                      recommend the contractor
                                                                      provide quarterly and annual
                                                                      report to the Services for
                                                                      inclusion in DoD required
                                                                      quarterly and annual reports
                                                                      to Congress. This allows
                                                                      earlier identification and
                                                                      correction of any potential
                                                                      prOb!ems.


Recommendation 8 .1.a.:            CONCUR                             The Army DeS G-31517 is
                                                                      currently in the process of
Recommendation to req uire                                            reviewing the Contractor
the Army DCS, G3/5f7 to                                               Statement of Work (SOW)
review DOD contractor                                                 and training requirement to
deployment operations and                                             ensure comoliance with the
ensure min imum U.S. Central                                          CENTCOM's T-SIRT
Command (CENTCOM)                                                     requirements fOr pre-
deployment training                                                   deployment training.
requirements are met before


                                                   2




                                                                 53
                              ARMY COMMENTS
        EFFORTS TO PREVENT SEXUAL ASSAULT/HARASSMENT INVOLVING DOD
               CONTRACTORS DURING CONTI NGENCY OPERATIONS


approving DOD contractor
individual replacement
deployment operations, as
required by DOD Instruction
3020.41

Recommendation a.i.b.:            CONCUR            The Army Deputy Chief of
Recommendation to require                           Staff G - 3/517 is currently in the
the Army DeS, G3Jsn 10                              process of reviewing the SOW
review the adequacy of                              and training requirements to
contrador deployment                                ensure compliance with the
training, including sexual                           CENTCOM's T-SIRT
assault prevention and                              requirements for pre-
response training, to ensure                        deployment training. Upon
that the contractor training is                     completion , the DeS G-315f7
comparable to theater specific                      will begin inspecting the
individual requirement training                     adequacy of the training given
offered at the Army                                 and the comparability to
Continental United States                           theater specific training
Replacement Centers.                                requirements as
                                                    recommended.




                                           3




                                               54
Department of the Air Force Comments






                                       DEPARTMENT OF THE AIR FORCE
                                                   WASHINGTON DC

                                                                                                     DEC 2 3 :!Xl!l

  OFFICE OF THE ASS!SrANT SECRETARY


         MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                        AnN: ACQUISITION AND PROGRAM MANAGEMENT

          SUBIECT:       Efforts to Prevent Sexual Assault'Harassmcnt Involving DOD Contractors During
                         Contingency Opemtions (Project No _02008-0000CE-0221.000)

                 This is in response to your memorandum requesting that the Assistant Secretary oflhe Air Force
         for Acquisition provide comments on the subject draft report dated November 6, 2009 . The Air Force
         appreciates the opportunity lu OITtT WTllIIltmls and recoguizes the efforts of the DoDIG in its analysis and
         report preparation. We reviewed the repoll, and our responses to recommendations AA . and B.2 for the
         Assistant Secretary ofthe Air Force for Acquisition are found below.

                 DOD IG Recommendation A.4. We recommend tbe Assistant S~cretary of the Air Force for
                 Acquisition require aU contracting officers to ensure that a specific deployment location is
                 designated in all contracts awarded to contractors accompanying the U,S. Armed Forces.

                          Air Force Response: Concur with comment; the Deputy Assistant Secretary for
                 Contracting (SAFlAQC) will draft a memo to all Contracting Officers directing them to comply
                 with DF ARS 252.225 ·7040 and DOD Instruction 3020.41, spccifically cnsuring Contmctor~
                 rt:purllo deploymellt centers that provide Sexual As~ault training.

                 DOl) JG Recommendation B,2. We recommend that the Assistant Secretary of the Air
                 Force for Acqllisition require Air Force Contracting Oflicus to ensure tbat designated
                 deployment loca1ions offer deployment training for contractors that meets all U.S. Central
                 Command Deployment requirements. sucb as sexual assault prevention and response
                 training, as required by DOD Instruction 3020.41.

                          Air Force Response: Concur with comment; SA FIAQC will obtain a list of approved
                 Deployment Centers from HQ CENTCOM and direct Contracting Officers comply with DOD
                 Instruction 3020.41 by including in the requirement (statement of work) directing contractors to
                 deployment centers that offer Sexual Assault Training,




                                                               (J~~~~USAF
                                                               Military Deputy, Office of the Assistant Secretary
                                                                    of the Air Force (Acquisition)




                                                                               55
U.S. Central Command Comments
 





                                 UNITED STA TE;; CENTRAL COMMAND
                                     OmCE OP Tl IE ClI lEf OF STAFF
                                     7 115 SOlHU U1)llN f)AI< Y UOU I,EVARO
                                 \1AUJU.I. AI R FOI{CE UAS E. fL OR HM :tiM! ·5 10:


                                                                                      4 December 2009

       FOR: DEPARTMENT OF DEFENSE INSPECTOR GENERAL (DODIG)

       SUBJECT: Roviow uf DODIG Draft Report-Efforts to Prevent Sexual
                     Assaull1Harassment Involving DOD Contractors during Contingency
                    Operations- (D2oo8-DOOOCE-0221.000)

       1. Thank. you for the opportunity to review the DODIG draft repol1.

       2. USCENTCOM concurs with the report and provides one technical comment from our
       legal staff for DODIG consideration. On page 5 of the report "sexual assault" is defined
       in tenns of the punitive article within the UCMJ 1isted at Art. 120(c), aggravated sexual
       assault. In reality, this is only one form of sexual assault listed amoug mwy sexual
       assault offenses contained in Art. 120. In fact, aggravated sexual assault requires a
       "sexual act ft defined in Art. 120 in terms of genital penetration by a penis. hand, finger or
       object. A better all inc1usive offense that defines sexual assault is located at subsection
       (m) of Article 120, wrongful sexual contact. This offense is complete when there is any
       sexual contact (with a broader deftnition than a sexual act) without the other person's
       pennission. This would include such things as touching ofbi'easts, groin or buttockS.
       The definition could note that other offenses. such as rape, aggravated sexual assault, and
       aggravated sexual contact, are also fonns of sexual assault.




                                                                   k
                                               2l           0.
                                                        AYW.HOOD
                                                         ajor General, U.S. Anny




                                                                     56
